<html>
<title> - BORDER VIOLENCE: AN EXAMINATION OF DHS STRATEGIES AND RESOURCES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
    BORDER VIOLENCE: AN EXAMINATION OF DHS STRATEGIES AND RESOURCES

=======================================================================



                                HEARING

                               before the

                        SUBCOMMITTEE ON BORDER,
                 MARITIME, AND GLOBAL COUNTERTERRORISM

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 12, 2009

                               __________

                            Serial No. 111-7

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
54-474                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California          PETER T. KING, New York
JANE HARMAN, California              LAMAR S. SMITH, Texas
PETER A. DeFAZIO, Oregon             MARK E. SOUDER, Indiana
ELEANOR HOLMES NORTON, District of   DANIEL E. LUNGREN, California
Columbia                             MIKE ROGERS, Alabama
ZOE LOFGREN, California              MICHAEL T. McCAUL, Texas
SHEILA JACKSON-LEE, Texas            CHARLES W. DENT, Pennsylvania
HENRY CUELLAR, Texas                 GUS M. BILIRAKIS, Florida
CHRISTOPHER P. CARNEY, Pennsylvania  PAUL C. BROUN, Georgia
YVETTE D. CLARKE, New York           CANDICE S. MILLER, Mississippi
LAURA RICHARDSON, California         PETE OLSON, Texas
ANN KIRKPATRICK, Arizona             ANH ``JOSEPH'' CAO, Louisiana
BEN RAY LUJAN, New Mexico            STEVE AUSTRIA, Ohio
BILL PASCRELL, JR., New Jersey
EMMANUEL CLEAVER, Missouri
AL GREEN, Texas
JAMES A. HIMES, Connecticut
MARY JO KILROY, Ohio
ERIE J.J. MASSA, New York
DINA TITUS, Nevada
VACANCY

                    I. LANIER AVANT, Staff Director

                     ROSALINE COHEN, Chief Counsel

                     MICHAEL TWINCHEK, Chief Clerk

                ROBERT O'CONNER, Minority Staff Director

                                 ______

      SUBCOMMITTEE ON BORDER, MARTIME, AND GLOBAL COUNTERTERRORISM

                LORETTA SANCHEZ, California, Chairwoman

JANE HARMAN, California              MARK E. SOUDER, Indiana
ZOE LOFGREN, California              MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 MIKE ROGERS, Alabama
ANN KIRKPATRICK, Arizona             CANDICE S. MILLER, Michichgan
BILL PASCRELL, JR., New Jersey       PETER T. KING, New York (Ex 
AL GREEN, Texas                      Officio)
ERIC J.J. MASSA, New York
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                     Alison Northop, Staff Director

                          Denise Krepp Counsel

                       Carla Zamudio-Dolan, Clerk

                Mandy Bowers Minority Subcommittee Lead

                                  (ii)
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Loretta Sanchez, a Representative in Congress from 
  the State of California, and Chairwoman, Subcommittee on 
  Border, Maritime, and Global Counterterrorism:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Mark E. Souder, a Representative in Congress from 
  the State of Indiana, and Ranking Member, Subcommittee on 
  border, Maritime, and Global Counterterrorism..................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  from the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     5
The Honorable Gus M. Bilirakis, a Representative in Congress from 
  the State of Florida...........................................    47
The Honorable Henry Cuellar, a Representative in Congress from 
  the State of Texas.............................................    43
The Honorable Al Green, a Representative in Congress from the 
  State of Texas.................................................    47
The Honorable Ann Kirkpatrick, a Representative in Congress from 
  the State of Arizona...........................................    51
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas........................................    39
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California............................................    49
The Honorable Michael T. McCaul, a Representative in Congress 
  from the State of Texas........................................    41
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  from the State of New Jersey...................................    53

                               WITNESSES

Mr. Robert Rufe, Director, Office of Operations Coordination and 
  Planning, U.S. Department of Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Alonzo Pena, Department of Homeland Security Attache, U.S. 
  Embassy, Mexico City, U.S. Department of Homeland Security:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Mr. John Leech, Acting Director, Office of Counternarcotics 
  Enforcement, U.S. Department of Homeland Security
  Oral Statement.................................................    19
  Prepared Statement.............................................    22
Mr. Salvador Nieto, Deputy Assistant Commissioner, Intelligence 
  and Operations Coordination, Customs and Border protection, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................    24
  Prepared Statement.............................................    25
Mr. Kuma Kibble, Deputy Director, Office of Investigations, 
  Immigration and customs Enforcement, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................    28
  Prepared Statement.............................................

                                APPENDIX

Additional Questions and Responses:
  Questions from Hon. Bennie G. Thompson:
    Responses from Mr. Kuma Kibble...............................    61
    Responses from Mr. John Leech................................    59
    Responses from Mr. Alonzo Pena...............................    60
    Responses from V/Adm Roger T. Rufe, Jr.......................    61


    BORDER VIOLENCE: AN EXAMINATION OF DHS STRATEGIES AND RESOURCES

                              ----------                              


                        Thursday, March 12, 2009

             U.S. House of Representatives,
      Subcommittee on Border, Maritime, and Global 
                                  Counterterrorism,
                            Committee on Homeland Security,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 311, Cannon House Office Building, Hon. Loretta Sanchez 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Thompson, Sanchez, Harman, 
Lofgren, Jackson Lee, Cuellar, Kirkpatrick, Pascrell, Green, 
Massa, Souder, McCaul, and Bilirakis.
    Ms. Sanchez. [Presiding.] The subcommittee will come to 
order. The subcommittee is meeting today to receive testimony 
on border violence, an examination of Department of Homeland 
Security strategies and resources.
    Good morning and welcome to today's hearing on border 
violence. Our panel today consists of witnesses from various 
agencies within the Department of Homeland Security who are 
familiar with the situation on the ground at the border. I am 
hopeful that this hearing will be a forum for an open and 
honest dialogue on the resources and the strategies that DHS 
has in place to address the growing violence in the U.S.-
Mexican border.
    This hearing is very timely in light of the fact that last 
week Mexico sent an additional 3,200 soldiers to the border. 
This increases the total number of Mexican soldiers combating 
drug cartels to more than 45,000. That is about the equivalent 
of the troops that we have in Afghanistan.
    With the Mexican government engaged in a violent struggle 
against these well-armed drug cartels, frequently resembling 
advanced military units, the United States and this Congress 
cannot ignore our role in assisting our neighbor and ally in 
this fight and, of course, in preventing that violence from 
slipping into the United States.
    A recent report by our former drug czar, General Barry 
McCaffrey, said that there is a terrible tragedy that could 
take place in the coming decade if we don't develop a 
resourced, strategic, appropriate response for the dangers that 
we face related to the drug trafficking in Mexico. And I would 
like to submit his report for the record.
    In developing a strategy to assist and deal with the drug 
cartel war in Mexico, there are several key issues, I believe, 
that must be addressed. For example, how will we as a nation 
address the fact that it is estimated by the ATF, the Alcohol, 
Tobacco and Firearms Agency, that 90 percent of the guns found 
in Mexico come from our streets and our stores?
    What role do we have in training and preparing and 
providing assistance to the Mexican government? How will we 
ensure that our shared trade and commerce routes that supply 
our country with many essential products are safe from 
disruption in Mexico and across the border? And how can we 
ensure that a variety of United States departments and agencies 
are working together effectively with the limited resources 
that we have?
    Furthermore, we must clearly assess whether or not the 
violence is actually spilling over into our border cities on a 
daily basis. Is it affecting innocent bystanders? We must not 
hype the dangers in our cities, such as El Paso, which actually 
has declining crime rates.
    However, we do know that cartel members are present in over 
230 cities in the United States. And some of them masquerade as 
local gang members who engage in drug-related kidnappings and 
home invasions. In addition, we should note that there are over 
200 United States citizens that have been killed in this drug 
war, most of them involved in the cartels, and a few--very few, 
but still--some innocent bystanders.
    And with those concerns in mind, it is essential that the 
Department of Homeland Security, along with other departments, 
continue to pursue a contingency plan to address any spillover 
into our country.
    So I look forward to a constructive dialogue with the panel 
today. We need to gain further insight into the situation at 
the border, so that we can have a clear understanding of the 
challenges, the resources it is going to take, the strategies 
that we can develop.
    And since this is one of the lead committees with respect 
to strategy and policy at the border, I think it is important. 
This is actually the first subcommittee hearing that we hold 
this year. We have had several briefings, obviously, on this 
issue. But this is the first public one that we have. And I 
assume that we will probably have some more in the coming weeks 
and months.
    And now, I would like to yield some time to my ranking 
member, Mr. Souder, on this, because he has been working on 
these issues quite a few years, actually probably decades now. 
I hate to--you have been in Congress at least that long. And so 
I would yield to my ranking member for his opening statement. 
Thank you.
    [The statement of Ms. Sanchez follows:]

  Prepared opening Statement of the Honorable Loretta Sanchez, Chair, 
     Subcommittee on Border, Maritime, and Global Counterterrorism

    Our panel today consists of witnesses from various agencies within 
the Department of Homeland Security who are familiar with the situation 
on the ground at the border.
    I am hopeful that this hearing will be a forum for an open and 
honest dialogue on the resources and strategies DHS has in place to 
address the growing violence on the U.S.-Mexico border.
    This hearing is very timely in light of the fact that last week 
Mexico sent an additional 3,200 soldiers to the border, increasing the 
total number of Mexican soldiers combating drug cartels to more than 
45,000.
    To put that into perspective, that is roughly the same, if not more 
than, the number of troops the United States currently has fighting in 
Afghanistan.
    With the Mexican government engaged in a violent struggle against 
well armed drug cartels that frequently resemble advanced military 
units, the United States and this Congress cannot ignore our role in 
assisting our neighbor and ally in this fight, and preventing this 
violence from spending across our border.
    A recent report by the former drug czar General Barry McCaffrey, 
which I would like to submit for the record, warned that ``a terrible 
tragedy is going to take place in the coming decade if we don't. . 
.develop a resource strategy appropriate for the dangers we face'' 
related to drug trafficking in Mexico.
    I couldn't agree more.
    In developing a strategy to assist and deal with the drug cartel 
war in Mexico there are several key issues that must be addressed:
        <bullet> How will we as a nation address the fact that 90 
        percent of guns found in Mexico come from our streets and 
        stores?
        <bullet> Waht role do we have in training, preparing and 
        providing assistance to the Mexican government?
        <bullet> How will we ensure that our shared trade and commerce 
        routes that supply our country with many essentials products 
        are safe from disruption in Mexico?
        <bullet> And, how can we ensure that a variety of U.S. 
        Departments and agencies work together efficiently and 
        effectively to respond to this threat?
    Furthermore, we must clearly assess whether or not the violence is 
spilling over to our border cities on a daily basis.
    We must not over hype the dangers in border cities, such as El 
Paso, which has seen declining crime rates.
    However, we know that cartel members are present in some 230 U.S. 
cities, often times masquerading as local gang members who engage in 
drug related kidnappings and home invasions.
    In addition, it should be noted that over 200 U.S. citizens have 
been killed in this drug war, either because they were involved in the 
cartels or were innocent bystanders.
    With those concerns in mind, it is essential that the Department of 
Homeland Security, along with other relevant Departments, continue to 
pursue a contingency plan to address ``spillover'' violence along our 
border.
    I look forward to a constructive dialogue with the panel today and 
hope to gain further insight into the situation at the border, a clear 
understanding of the challenges facing the Department of Homeland 
Security in coordinating a response with other U.S. agencies, and a 
vision of the path forward so that this Subcommittee can ensure that 
all necessary resources are available in counteracting this threat of 
border violence.

    Mr. Souder. Thank you, Madam Chairman. And thank you for 
having this be our first hearing and for our excellent 
briefings we have had already this year. We have all seen the 
news reports about the massive number of deaths and violence in 
Mexico with numbers exceeding 7,000 since January 2007. That is 
more than 10 deaths every single day for the past 2 years 
linked to drug violence.
    These are brutal murders, often accompanied with torture as 
the drug trafficking organizations battle each other and the 
government of Mexico. Most of these violent acts have occurred 
in public places and otherwise brought attention of the public 
in an attempt to send a message. We have seen some of this 
violence come into the U.S. with reports that Phoenix is the 
kidnapping capital of America, as cartels across the border 
carry out violence against their rivals and associates 
operating in the U.S.
    U.S. Justice Department recently said that Mexican gangs 
are the biggest organized crime threat to the United States 
operating in at least 230 cities and towns. In February, I had 
the opportunity to travel with Congressman Cuellar and some 
other members to Mexico where we met with President Calderon. 
His message was clear and direct. His government needs 
immediate help and assistance to quell the violence.
    It is important that we recognize the sacrifices Mexicans--
Mexico's law enforcement officers, military personnel and the 
citizens of Mexico, who continue to be targeted by the ruthless 
drug trafficking organizations. Under President Calderon's 
leadership, there are 45,000 Mexican military deployed to try 
and break the hold of the drug cartels over all the parts of 
Mexico. He has established a new police force and is seeking to 
root out corruption.
    I think it is important to include this in the record to 
demonstrate that, while we are very concerned about the 
violence and the threat posed to the United States, we 
recognize that the government of Mexico is making tremendous 
efforts. In many ways, the increase in violence shows that 
security efforts, both in the U.S. and Mexico are working and 
are in fact threatening the cartels.
    That being said, the reality is that there is a crisis at 
our borders that could spread to U.S. communities, if Congress 
doesn't act. It is critical that the United States move forward 
with haste to gain control over our borders. The consequences 
of the continued vulnerability along the border are clearly 
evident in the violent crime and drug-related death rates 
throughout the United States.
    I find it very troubling that, during the 110th Congress, 
while we worked together on hearings and site visits, the 
Committee on Homeland Security did not pass a single piece of 
border security legislation, and this subcommittee didn't hold 
a markup.
    The Department of Homeland Security will play a critical 
role in stopping this violence and providing important support 
and training to the counterparts in Mexico. It is important 
that this committee does what is necessary to help these men 
and women succeed in their mission by enacting legislation to 
enhance the resources staffing and authority.
    Madam Chair, I hope that we can work in a bipartisan 
manner, as we have done thus far, to craft such legislation 
that will address these critical areas soon.
    I would like to thank our witnesses for being here today. I 
look forward to hearing from the Department of Homeland 
Security on what we hope to do to help quell the violence that 
plagues both of our countries, especially at a time when 
violence directed at law enforcement is at an all-time high 
with over 1,000 assaults on border patrol agents along the 
border last year.
    I am equally interested in finding out how funding under 
the Merida Initiative will help, and where the southwest border 
counternarcotics strategy is in development.
    I would especially like to welcome Al Pena, the Department 
of Homeland Security attache from Mexico City. We appreciate 
your willingness to come to Washington to participate in this 
hearing. I think the subcommittee will gain a much better 
understanding of what is happening on the ground in Mexico, and 
how different initiatives are working from your first-hand 
experience. Thank you again for being here.
    I thank all the witnesses and look forward to your 
testimony.
    Thank you, Madam Chair.
    Ms. Sanchez. I thank my ranking member. I will just remind 
him we may not have passed some legislation. But we certainly 
increased the resources in the last 2 or 3 years. I know CVP 
probably went from about 8,000 people to almost 20,000 people. 
So, you know, we have been working very hard at this.
    I will now recognize the chair of the full committee, the 
gentleman from Mississippi, Mr. Thompson, if he has an opening 
statement.
    Mr. Thompson. Thank you very much, Madam Chairman. I 
appreciate you calling this hearing to look at what obviously 
is a significant issue for a lot of us as well as this country. 
And I also would like to thank our witnesses for being here 
today to discuss this issue of violence across our border with 
Mexico.
    Fueled in part by a demand for narcotics in the U.S., drug 
traffickers have crossed our nation's southwest border for 
decades with a business-as-usual mentality. Sometimes they are 
caught. Sometimes they are not. But the reality remains the 
same. The drug cartels are making billions of dollars.
    Mexican President Felipe Calderon has taken unprecedented 
steps to quash the drug cartels and root out crime in Mexico. 
His efforts have coincided with increased border security 
efforts in the U.S. In response, the cartels have resorted to 
extraordinary violence and gruesome tactics to protect their 
turf and profits.
    Last year alone, violence related to the drug trade claimed 
the lives of about 6,000 individuals, a number that can only be 
described as shocking. Unfortunately, the violence has shown 
little sign of stopping, causing President Calderon to send 
thousands more troops to Mexican border towns.
    Mexico is not alone in this fight, however. In December, 
the first $197 million of the Merida Initiative provided by 
Congress was released. Secretary Napolitano has already made it 
clear that she will be giving the situation in Mexico her 
utmost attention.
    I can assure you, Madam Chair and other committee members, 
that the Committee on Homeland Security will give it our 
undivided attention also.
    Madam Chair, because we have five witnesses, I will just 
submit the rest of my statement for the record. And I look 
forward to their testimony.
    The statement of Mr. Thompson follows:]

   Prepared Statement of Bennie G. Thompson, Chairman, Committee on 
                           Homeland Security

    Fueled in large part by demand for narcotics in the U.S., drug 
traffickers have crossed our Nation's southwest border for decades with 
a ``business as usual'' mentality.
    Sometimes they are caught, sometimes they are not, but the reality 
remains the same--the drug cartels are making billions of dollars.
    Mexican President Felipe Calderon has taken unprecedented steps to 
quash the drug cartels and root out corruption in Mexico.
    His efforts have coincided with increased border security efforts 
in the United States.
    In response, the cartels have resorted to extraordinary violence 
and gruesome tactics to protect their turf and profits.
    Last year alone, violence related to the drug trade claimed the 
lives of about 6,000 individuals--a number that can only be described 
as shocking.
    Unfortunately, the violence has shown little sign of stopping, 
causing President Calderon to send thousands more troops to Mexican 
border towns in turmoil.
    Mexico is not alone in this fight, however.
    In December, the first $197 million of the Merida Initiative 
provided by Congress was released.
    Secretary Janet Napolitano has already made it clear that she will 
be giving the situation in Mexico her ``utmost attention.''
    I can assure you that this issue has the Committee on Homeland 
Security's attention as well.
    The violence is in America own backyard and cannot be ignored.
    At the same time, we must be careful about predictions that Mexico 
is at risk of becoming a failed state'' or implying that U.S. border 
communities are in a similar state as their Mexican counterparts.
    Instead, we need thoughtful planning and decisive action where 
appropriate to respond to the potential threat to the U.S. and to help 
Mexico respond to this very serious problem.
    The Department of Homeland Security is uniquely positioned both to 
help curb the violence and to respond should the violence ``spill 
over'' into the U.S.
    Thousands of Border Patrol agents, Customs and Border Protection 
officers, ICE special agents, and other Department personnel work the 
southwest border every day.
    With the right resources, they may assist with interdicting the 
southbound shipments of weapons and cash that help feed the violence.
    They would also be our first line of defense should violence spill 
over the border.
    Given its integral role, it is vital that the Department of 
Homeland Security have a sound strategy in place to deal with the 
situation in Mexico.
    Despite some of the dire predictions, we hope never to need to put 
such a plan into action.
    Howver, we do need to make sure DHS has all the resources and 
authorities it needs to carry out such a plan if necessary.
    As Chairman of this Committee, I will do everything in my power to 
ensure that happens.
    I look forward to hearing from our witnesses about the Department's 
plans to utilize its assets to prevent and, if necessary, respond to 
border violence or other incidents along our shared border with Mexico.

    Ms. Sanchez. I think our chairman and our--ranking member 
of the full committee is not here to submit his statement. But 
I will remind other members of the subcommittee that, under 
committee rules, opening statements may be submitted for the 
record.
    So I welcome our panel of witnesses. Thank you, gentlemen, 
for being with us this morning.
    Our first witness, Vice Admiral Roger T. Rufe, Jr. from the 
United States Coast Guard, retired, was appointed director of 
the Department of Homeland Security's Operations Directorate in 
July 2006. As director, he is responsible for integrating 
operations across the department's component agencies as well 
as coordinating with state, local, tribal and other federal 
departments. The admiral returned to public service after 
having served 34 years in the Coast Guard.
    Our second witness, Mr. Alonzo Pena, became the Department 
of Homeland Security's attache in Mexico City in July of 2008. 
In this capacity, he serves as the department's senior diplomat 
and primary contact with the Mexican government. Prior to his 
appointment Mr. Pena served as special agent in charge of ICE's 
Office of Investigations in Phoenix, Arizona. Welcome, Mr. 
Pena.
    Our third witness, Mr. John Leech, is the acting director 
for the Office of Counternarcotics Enforcement at the 
Department of Homeland Security. He serves as the primary 
policy advisor to the secretary for department-wide 
counternarcotics issues. And he came to the Department of 
Homeland Security from the White House Office of National Drug 
Control Policy, where he served as the secretary of defense's 
counternarcotics license. Welcome.
    Our fourth witness, Mr. Salvador Nieto, was appointed to 
the CBP Office of Intelligence and Operations Coordination as 
the deputy assistant commissioner in November of 2008. In this 
capacity, Mr. Nieto leverages the skills of intelligence, 
operations and targeting expert to maximize CBP's enforcement 
efforts. Mr. Nieto started his career with the border patrol in 
1988. Welcome.
    And then our final witness, Mr. Kumar Kibble, is deputy 
director of the Office of Investigations for ICE. In this 
capacity, he serves as the chief operating officer for the 
largest investigative arm of the Department of Homeland 
Security. Mr. Kibble began his federal law enforcement career 
as a special agent with the United States Customs Service, of 
course, in Los Angeles, California. So welcome.
    And without objection, we will take the witness' full 
statements. They will be inserted into the record. I now ask 
each of you to summarize your statement in 5 minutes or less. 
And we will start with Admiral Rufe.

   STATEMENT OF VICE ADMIRAL ROGER T. RUFE, JR., USCG, RET., 
  DIRECTOR, OFFICE OF OPERATIONS COORDINATION, DEPARTMENT OF 
                       HOMELAND SECURITY

    Admiral Rufe. Good morning, Madam Chairman, Ranking Member 
Souder, Chairman Thompson and members of the subcommittee. I am 
Roger Rufe, director of operations, coordination and planning 
at the Department of Homeland Security.
    I am pleased to appear today alongside my distinguished 
colleagues to discuss how the Office of Operations Coordination 
and Planning has coordinated the development of a departmental 
southwest border violence contingency plan to prevent or 
respond to a significant escalation of violence along the 
United States southwest border and adjacent maritime domain.
    I welcome this opportunity to discuss how this ongoing 
contingency planning effort facilitates the ability of the 
secretary to respond to an escalation in violence along the 
U.S. southwest border and to execute her incident management 
responsibilities in accordance with Homeland Security 
Presidential Directive 5.
    The trend of increasing drug cartel violence in Mexico is 
alarming. Rival trafficking organizations vying for control and 
against the government of Mexico's anti-drug efforts have 
fueled increased levels of violence amongst the competing 
traffickers and against those who seek to enforce Mexican law.
    In June, 2008 DHS observed increases in violence in Mexico 
and along the southwest border and began a contingency planning 
effort to address southwest border violence at the direction of 
former secretary Michael Chertoff. DHS activated an intra-
departmental operations planning team, with participation from 
key interagency partners, to include the Department of Justice, 
Department of Defense, and Department of State.
    Our role, then, as operations role in the planning process, 
was to coordinate the planned development in support of Customs 
and Border Protection, who was the lead agency, and other DHS 
components and our federal interagency partners.
    The operations planning team developed a departmental 
guidance statement and a department southwest border violence 
operations plan. These two products provided the secretary a 
scalable, tailored approach to address the myriad of threats 
posed by a significant escalation of violence along the U.S. 
southwest border.
    Since current DHS resources along the southwest border have 
not yet required augmentation, the OPLAN has not been 
activated. This operations plan consists of a four-phase system 
designed to scale the federal response to the level of violence 
in the area of operations.
    Phase 1 reflects steady-state operations, our current state 
of operations. Field-level, CBP leaders are responding to 
events within their area of operations using their organic 
resources and plans, as in fact was done just a few weeks ago 
when demonstrations on the Mexican side of the border briefly 
impacted the flow of commerce at the POEs, at the ports of 
entry.
    Phase 2 addresses DHS response requirements for an 
escalation of violence along the southwest border that is 
beyond steady-state, but does not warrant a full federal 
response. This phase is divided into two sub-phases to provide 
flexibility based on the violence, based on the threat. Phase 2 
reflects an escalation of violence that is within the organic 
capability of CBP, ICE and the Coast Guard in the area of 
operations.
    Phase 2b addresses an escalation of violence that requires 
a full departmental response, bringing in forces from elsewhere 
to augment the existing VH resources in the area of operations. 
If it becomes necessary to transition to Phase 2b, the CBP 
commissioner will activate a southwest border interagency task 
force and appoint a director. This task force will serve as the 
field-level hub for coordinating with all state and local 
authorities in response to the escalating violence.
    In the event that DHS resources are unable to effectively 
respond to the situation, or if special operation or if special 
response capabilities are required that are not organic to DHS, 
the secretary will initiate and coordinate the strategic 
operations of a full federal response, that is using other 
federal agency resources, in phase 3.
    Once the response mission has restored security along the 
southwest border and direction is given by the president or the 
secretary, phase 4 will begin. In this phase, the task force 
will begin demobilization.
    Since Secretary Napolitano's arrival at DHS in January, she 
has received numerous briefings from the department officials 
on Mexican drug cartels, on violence along the southwest border 
and the department's enforcement and prevention strategies. 
During these briefings, the secretary provided additional 
guidance about the scope and objectives of the existing 
operations plan.
    She directed my office, in coordination with CBP and other 
key DHS components, to conduct a review of the operations plan 
and to determine whether it will sufficiently address 
contingencies on the border other than escalating levels of 
violence. As we revise the OPLAN, we will conduct outreach 
within the department critical state, local and tribal 
stakeholders along the southwest border. This outreach will 
ensure that our state and local partners are fully engaged in 
southwest border planning.
    Thank you for the opportunity to report on our progress 
today. I look forward to your questions.
    [The statement of Admiral Rufe follows:]

                    Prepared Statement of Roger Rufe

    Good morning, Chairwoman Sanchez, Ranking Member Souder and Members 
of the Subcommittee. I am Roger Rufe, Director of the Office of 
Operations Coordination and Planning at the U.S. Department of Homeland 
Security (DHS). I am pleased to appear today alongside Deputy Assistant 
Commissioner Nieto, Kumar Kibble, Al Pena and John Leech. Thank you for 
inviting me to discuss how the Office of Operations Coordination and 
Planning (OPS) has coordinated the development of a Departmental 
Southwest Border Violence Plan to prevent or respond to a significant 
escalation of violence along the United States' southwest border and 
adjacent maritime domain. I welcome this opportunity to discuss how 
this ongoing contingency planning effort facilitates the ability of the 
Secretary of DHS (Secretary) to respond to an escalation in violence 
along the U.S. southwest border (SWB) and to execute her incident 
management responsibilities in accordance with Homeland Security 
Presidential Directive-5 (HSPD-5).
    As the Committee is well aware, the trend of increasing drug cartel 
violence in Mexico is alarming. As Secretary Napolitano stated in her 
appearance before this Committee on February 25, ``Mexico right now has 
issues of violence that are a different degree and level than we've 
ever seen before.'' The DHS Office of Intelligence and Analysis (I&A) 
is assessing and analyzing the threat Mexican Drug Trafficking 
Organizations pose to the border. I&A is working closely with its 
sister agencies within the Intelligence Community (IC), and other 
Federal, State, local, and Tribal partners to share the most current 
information and analysis.
    The primary threats along the U.S. SWB are border violence, 
southbound gun smuggling, northbound drug trafficking, and illegal 
immigration. Mexican Drug Trafficking Organizations constitute the 
greatest organized crime threat to the United States.\1\ The Sinaloa 
and Gulf cartels remain the most powerful in Mexico. Rival trafficking 
organizations vying for control against the government of Mexico's 
anti-drug efforts have fueled increasing levels of violence amongst the 
competing traffickers and against those that seek to enforce Mexican 
law. There were approximately 6,000 drug-related murders in Mexico in 
2008; that number was more than double the previous year's record. Most 
drug-related murders on both sides of the border are limited to people 
who are either directly or indirectly (through family members) 
connected to the drug trade as traffickers or enforcement officers.
---------------------------------------------------------------------------
    \1\ (U) National Drug Intelligence Center, 2009 National Drug 
Threat Assessment, December 2008.
---------------------------------------------------------------------------
    In June, 2008 DHS observed increases in violence along the SWB, 
resulting in several incidents where DHS employees, American citizens, 
and Government of Mexico (GOM) officials were placed at greater risk. 
At that time, contingency planning to address Southwest Border Violence 
(SWB-V) was initiated at the direction of former Secretary Chertoff. 
DHS activated an intra-departmental Operations Planning Team (OPT), 
with participation from key interagency partners (e.g., DOJ, DoD, DOS). 
OPS' role in the planning process was to coordinate the plan in support 
of Customs and Border Protection (CBP), other DHS components, and our 
Federal interagency partners. The Operations Planning Team developed 
two DHS SWB-V planning products: a Department Guidance Statement (DGS) 
\2\ and a Department SWB-V Operations Plan (OPLAN). These two products 
provided the Secretary a scalable/tailored approach to address the 
myriad of threats posed by a significant escalation of violence along 
the US SWB. Secretary Chertoff approved the SWB-V DGS on November 5, 
2008 and the SWB-V OPLAN on January 16, 2009. Since current DHS 
resources along the southwest border have not yet required 
augmentation, the OPLAN has not been activated.
---------------------------------------------------------------------------
    \2\ A DGS is a directive from the Secretary to develop a department 
level plan with specific guidance on roles, responsibilities, and 
associated issues.

The Existing Border Plan
    I'd like to share with you details from the current plan. Under the 
current iteration of the plan which is based on cross border violence, 
DHS developed a four phase system to execute this OPLAN designed to 
scale the Federal response to the level of violence in the area of 
operations. Phase 1 reflects steady-state operations, our current state 
of operations. CBP Headquarters and field offices are coordinating with 
the IC, other Federal, State, local, and tribal partners, and the GOM, 
to maintain situational awareness along the U.S. SWB. Field-level CBP 
leaders are responding to events within the area of operations using 
their organic resources and plans. CBP Headquarters is monitoring 
events and providing situational awareness to DHS Headquarters through 
existing channels. DHS Components, Directorates, and Offices are 
modifying and evaluating the Department OPLAN. Response assets have 
been identified, and deployment and resource plans are being developed. 
Phase 1 will end with the direction of the President or the DHS 
Secretary to move to Phase 2a, 2b, or 3.
    Phase 2 addresses DHS response requirements for an escalation of 
violence along the SWB that is beyond steady-state, but does not 
warrant a full Federal response. This phase is divided into two sub-
phases to provide greater flexibility based on the threat. Phase 2a 
reflects an escalation of violence that is within the organic 
capability of CBP, ICE, and USCG in the area of operations. Phase 2b 
addresses an escalation of violence that requires a full Department 
response to augment the existing CBP, ICE, and USCG resources in the 
area of operations.
    Phase 2a, reflecting an enhanced border response, will begin when 
directed by the President, the DHS Secretary, or the CBP Commissioner. 
This decision will be based either on intelligence indicators and 
warnings or on an escalation in violence resulting in the CBP field 
leadership's inability to adequately respond using local CBP resources 
in the SWB area of operations. CBP field leaders will maintain tactical 
lead and continue to coordinate with local DHS and interagency 
partners, as well as GOM representatives. CBP Headquarters will assume 
the lead to coordinate operations, activate the CBP Crisis Action Team, 
and designate a CBP National Incident Manager. CBP Headquarters will 
provide situational awareness to DHS leadership, via the DHS National 
Operations Center (NOC), with greater frequency.
    The CBP Commissioner will request permission from the DHS Secretary 
to transition to Phase 2b in the event that full CBP national resources 
are unable to effectively respond to the situation, or if specialized 
non-organic response capability is needed. Upon approval, the CBP 
Commissioner will activate the SWB Interagency Task Force (SWB-ITF) and 
appoint a Director. The SWB-ITF will serve as the field-level hub for 
coordinating with all State and local authorities. The task force, 
which will provide situational awareness to DHS leadership via the NOC, 
will be staffed with personnel from selected Departments and Agencies 
to facilitate rapid coordination of prevent, protect, and response 
activities in the affected areas. Organization, operating hours and 
size of the task force will be dependent upon the events occurring on 
the ground. My office will activate a SWB Crisis Action Team to monitor 
the situation, maintain situational awareness and coordinate Department 
and Federal support, on an as needed basis.
    In the event that DHS resources are unable to effectively respond 
to the situation--or if special response capabilities are required that 
are not organic to DHS--the Secretary, under the authority granted by 
the Homeland Security Act of 2002 and HSPD-5, will initiate and 
coordinate the strategic operations of a full Federal response in Phase 
3. A tactical response lead will remain with local field leadership 
within their respective areas of responsibility, while the SWB-ITF will 
assume overall operations coordination. Other Federal Departments and 
Agencies providing support may also activate coordination centers, 
consistent with their existing authorities.
    Once the response mission has restored security along the U.S. SWB 
and direction is given by the President or DHS Secretary, phase 4 will 
begin. In this phase, the SWB-ITF will develop a demobilization plan. 
Demobilization may not occur immediately as it would depend upon 
conditions in the field. High levels of violence along the southwest 
border may result in a requirement for long-term recovery, such as 
housing and care for displaced persons, or to restore damaged 
infrastructure. Federal Agencies with authority and responsibility for 
recovery may be called upon to activate appropriate coordination 
mechanisms. The SWB-ITF will remain activated with the addition of a 
recovery coordination cell until such coordination is appropriately 
handed off to another coordination entity.
    While the Federal response to a significant escalation in violence 
may proceed in stages, nothing prevents the President, the Attorney 
General or the DHS Secretary, from immediately initiating a higher 
level response at any time.

Key Department Roles and Responsibilities
    The plan will further clarify Department roles and 
responsibilities, including those for U.S. Customs and Border 
Protection, U.S. Immigration and Customs Enforcement, U.S. Coast Guard, 
Transportation and Security Administration, Federal Emergency 
Management Administration, Office of Operations Coordination and 
Planning, the Office of Intelligence & Analysis, and the Office of 
Infrastructure Protection. Because of their predominant role at the 
border, CBP will serve as the lead DHS Component responsible for the 
effort to prevent and respond to a significant escalation of violence 
along the SWB. CBP would also be responsible for coordinating Federal 
operations through an organization specifically created by the OPLAN--
the SWB-ITF. The task force is organized to ensure seamless integration 
with other Federal, State, local and Tribal partners.

Department of Defense Support to DHS SWB Planning
    The Department of Defense (DOD) is involved with our ongoing SWB 
planning efforts, and they were part of the OPT activated by DHS in 
June 2008. Any DOD support provided in response to a significant 
escalation in violence or other significant threat along the U.S. SWB 
will fall under the category of Defense Support of Civil Authorities, 
where DOD is in a supporting role. Requests for DOD capabilities to 
support the interagency response are nested in the well-established 
existing Federal request for assistance process (utilizing Title 10 and 
Title 32 forces when approved by the Secretary of Defense) and internal 
State emergency management procedures (National Guard in State Active 
Duty or Title 32 status). DOD support would be requested only if DHS 
Components are overwhelmed or do not have the resident capabilities to 
fulfill the mission. Areas of potential DOD support include SWB-ITF 
staffing, where DOD planning expertise can be used, as well as other 
military-unique capabilities, executed either by the National Guard (in 
State Active Duty or Title 32 status) or by Title 10 DOD forces. In 
accordance with section 377 of Title 10, U.S. Code, such support would 
be provided by DOD on a reimbursable basis.

The Next Steps in SWB Planning
    It is important to note that since Secretary Napolitano's arrival 
at DHS in January, she has received numerous briefings from Department 
officials on Mexican drug cartels, violence near the southwest border 
and the Department's enforcement and prevention operations. In 
addition, OPS, CBP, and other DHS components have briefed the Secretary 
about the Department's contingency plans to address increased levels of 
violence at the southwest border. During these briefings, the Secretary 
provided additional guidance about the scope and objectives of the 
existing OPLAN. She directed my office, in coordination with CBP and 
other key DHS components, to conduct a review of the OPLAN to determine 
whether it will sufficiently address contingencies on the border other 
than escalating levels of violence. For example, we should consider how 
the Department would change its operational posture in response to 
political instability, or a land-based mass migration on the border 
that does not necessarily result in violence. To that end, my office 
has initiated a revision process for the OPLAN that will result in key 
changes to its critical considerations, assumptions, mission statement, 
and essential tasks. Additionally, we will work with the DHS Offices 
for Intergovernmental Programs and State and Local Law Enforcement to 
conduct outreach with the Department's critical State, local, and 
tribal stakeholders along the southwest border. This outreach will 
ensure that our State and local partners are fully engaged in southwest 
border plans.

Conclusion
    I am very pleased to report on the progress DHS and the interagency 
community are making in expanding the existing contingency plan into a 
broader plan that addresses current and emerging security issues along 
the U.S. SWB. This broader plan provides the DHS Secretary a graduated, 
flexible, and scalable response, using fully integrated Department and 
interagency resources, to address the myriad of threats and events that 
could occur along the U.S. SWB. Thank you for the opportunity to report 
to the Committee on our ongoing efforts. I request that you place this 
testimony in the permanent record and would be pleased to answer any 
questions at this time.

    Ms. Sanchez. Thank you, Admiral.
    Our next witness will be Mr. Pena. If you would please 
summarize your statement in 5 minutes or less.

   STATEMENT OF ALONZO PENA, DEPARTMENT OF HOMELAND SECURITY 
  ATTACHE, U.S. EMBASSY, MEXICO CITY, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Pena. Thank you very much. Chairman Sanchez, 
Congressman Souder, distinguished members of the subcommittee, 
Chairman Thompson, thank you for the opportunity to appear 
before you today in order to discuss the department's role in 
addressing border violence and the strategies and resources 
that we can bring to this vitally important mission.
    The United States and Mexico are bound together by 
significant cultural, social and economic ties. We share the 
determination to protect our region from transnational threats 
such as terrorism and organized crime. As the DHS attache at 
the U.S. embassy in Mexico City, I am directly involved in our 
efforts to foster cooperation with the government of Mexico. I 
am deeply honored that you would invite me to share my 
perspectives.
    The relationship with Mexico is a priority for DHS. I am 
one of only a small handful of DHS headquarters-level attaches 
deployed worldwide. And the U.S. embassy in Mexico City is the 
only one with six of the seven DHS operational components 
represented.
    As a DHS attache, I am Secretary Napolitano's 
representative in Mexico. I advise the chief of mission on 
policy matters related to DHS' work. And I ensure that DHS is 
proactively engaged with U.S. government interagency partners 
and our Mexican counterparts. I bring with me 25 years of 
experience in federal law enforcement in California, Texas, 
Arizona and in Mexico.
    Nearly every day, the media reports on the violence that 
results from transnational criminal organizations operating 
within Mexico and along the U.S.-Mexican border. Addressing 
this situation during a 60 Minutes interview, Secretary 
Napolitano said: Mexico right now has issues of violence that 
are a different degree and level than we have ever seen before.
    From my position on the ground in Mexico, I can attest that 
the violence has increased. The violence along the southern 
border is a result of transnational organizations that wage war 
against each other and those who attempt to stop them. Many 
innocent people, including brave judges, soldiers and police, 
have been murdered. The cartels clearly recognize that the 
routes used to traffic narcotics and people northward offer 
opportunities to traffic guns and bulk cash southwards.
    DHS considers the risk that these cross-border smuggling 
routes could be used by terrorist organizations to be a very 
high priority. Mexican president Calderon has taken decisive 
and historic steps. He has not only directed the federal and 
local law agencies to focus their resources fighting 
transnational criminal organizations, but he has even drawn on 
the Mexican military.
    President Calderon has also taken monumental steps to 
eliminate corruption, modernize Mexican institutions and to 
professionalize staff. The Calderon administration has spent 
billions of dollars on these efforts. And thousands of Mexicans 
have lost their lives as a result of the cartel's violent 
reaction to the fight.
    While there is violence in Mexico, it is not, and I repeat 
not, an indication of the government of Mexico's inability to 
maintain control. Rather, it is an indication of President 
Calderon's success in confronting transnational criminal 
organizations in Mexico. The violence and lawlessness along the 
border represents challenges for Mexico. But the swift and 
unrelenting resolve of the Calderon administration should put 
to rest any doubts about the Mexican government's ability to 
respond to the challenges it faces.
    In support of the Calderon administration's historic 
efforts, the U.S. government has taken extraordinary steps. DHS 
participates in these efforts with significant expertise and 
authorities that assist Mexico in identifying, interdicting and 
investigating criminal activity at and with a nexus to our 
border. DHS has undertaken a number of successful cooperative 
efforts and initiatives to assist in confronting drug violence 
on the U.S. and Mexican border. These efforts are outlined in 
my written testimony.
    In closing, I assure you that the efforts being undertaken 
by DHS and Mexico are worthwhile and will pay dividends for 
both the United States and Mexico. I believe this work must 
continue for the national security of both countries. I want to 
assure you that Mexico is committed. And we must remain 
engaged.
    Chairwoman Sanchez, Representative Souder, Chairman 
Thompson, again thank you for giving me--inviting me--the 
opportunity to testify. It has been a great honor. And I would 
be happy to take your questions.
    [The statement of Mr. Pena follows:]

                     Prepared Statement of R. Pena

    Chairwoman Sanchez, Congressman Souder and Distinguished Members of 
the Subcommittee:
    Thank you for the opportunity to appear before you and provide 
testimony on the role that DHS is playing in addressing border 
violence, and the strategies and resources that the Department can 
bring to this important mission. The United States and our Mexican 
neighbors are bound together by cultural ties, social and economic 
links, a shared tradition of democracy, and a mutual respect for the 
sovereignty and territorial integrity of individual states. We are 
further joined together by a determination to protect our region from 
trans-national threats, such as terrorism and organized crime. As the 
Department of Homeland Security (DHS) Attache at the U.S. Embassy in 
Mexico City, I am directly involved in the Department's efforts to 
cooperate with the Government of Mexico (GOM) on a number of homeland 
security issues. This issue is especially important to me because I am 
originally from Texas and have spent much of my career in Texas and 
Arizona. It is an honor to be invited to come before you and share my 
perspective on what is happening in Mexico.

Role of the DHS Attache
    First, I would like to take a moment to discuss my basic 
responsibilities in Mexico City. I arrived in-country on July 9,2008, 
and am the first ever DHS headquarters-level Attache deployed in Mexico 
and one of a small handful of DHS headquarters-level Attache deployed 
worldwide. DHS is also represented by component Attache offices from 
Customs and Border Protection (CBP), Immigration and Customs 
Enforcement (ICE), U.S. Secret Service (USSS), U.S. Citizenship and 
Immigration Services (USCIS), Transportation Security Administration 
(TSA) and U.S. Coast Guard (USCG). Mexico City is the only Embassy with 
six of the seven operational components of DHS represented. In total, 
DHS has over 50 personnel in Mexico.
    As the DHS Attache, I am Secretary Napolitano's direct 
representative at the Embassy in Mexico. I advise the State Department 
Chief of Mission on policy matters related to DHS's mission work with 
relevant Mexican institutions, and promote DHS goals and objectives 
related to border, port and transportation security, civil emergency 
preparedness, critical infrastructure protection, information sharing, 
immigration and customs enforcement, law enforcement training, and the 
security applications of science and technology. I am a member of the 
Senior Leadership of the Embassy and the Counter-Terrorism Information 
Group and I participate in weekly Law Enforcement and Border Working 
Group meetings. I also accompany Senior DHS leadership during their 
visits to Mexico.
    In short, I am the point of intersection between DHS headquarters 
in Washington DC, DHS components in Mexico City, our US interagency 
partners residing at the Embassy and officials in the Government of 
Mexico. I serve to ensure that all these pieces are connected, 
providing policy and strategic guidance so that DHS is integrated into 
broader US Government engagement in Mexico.

The Current Situation in Mexico
    Nearly every day media outlets report on the violence that results 
from transnational criminal organizations operating along the U.S.-
Mexican border. Some of you may have watched Secretary Napolitano's 
recent interview with Anderson Cooper on `60 Minutes' which addressed 
this very topic. As Secretary Napolitano told the Homeland Security 
Committee on February 25th ``Mexico right now has issues of violence 
that are a different degree and level than we've ever seen before.''
    The violence we observe along the southwestern border is the result 
of transnational criminal organizations that wage war against each 
other and those who attempt to stop their illicit activities. These 
trafficking groups execute with impunity; killing not only members of 
competing organizations, but also police officers and soldiers who are 
attempting to protect Mexican citizens crime and ensure a strong and 
economically viable Mexico. The Administration of Felipe Calderon has 
taken serious and courageous steps to combat this violence and to stem 
the drug trade which fuels it, but in many cases the drug cartels are 
better-financed and better-armed than law enforcement and security 
agencies.
    It is also the case that cross-border criminal organizations 
recognize that routes used to traffic narcotics and people northward 
offer opportunities to traffic guns and bulk cash southward. DHS 
considers the risk that these cross-border smuggling routes could be 
used by terrorist organizations to be a high priority. In the near 
term, the drug violence along the U.S. southwestern border challenges 
our own law enforcement agencies to ensure the integrity of the border 
and to protect American towns and cities while ensuring the legitimate 
flow of goods and people across the border.
    Neither this criminal phenomenon, nor the violence that follows, 
recognize borders. In February, 2009, 755 criminals living in the 
United States who are allegedly tied to a major Mexican drug 
trafficking organization were arrested. Defeating this transnational 
challenge requires a commitment by both Mexico and the United States to 
take historic steps to fight our common threat.

Mexican Efforts
    President Calderon has taken decisive and historic steps against 
transnational criminal organizations. He has not only directed federal 
and local enforcement agencies to focus their resources fighting 
transnational criminal organizations, but has even drawn on the Mexican 
Military to assist civil enforcement efforts. Calderon has also taken 
monumental steps to eliminate corruption, modernize Mexican 
institutions, and professionalize staff. Additionally, the Government 
of Mexico is running joint military-law enforcement anti-drug 
operations in ten states, and some 27,000 troops are specifically 
involved in counter drug activities, including eradication and 
interdiction. His national security team has seized record amounts of 
cash, drugs and guns--but the battle intensifies. The Calderon 
administration has spent billions of dollars on these efforts and yet, 
according to media reports, thousands of Mexican nationals have lost 
their lives as a result of the cartel's violent reaction to Calderon's 
fight against dangerous criminal groups.
    The violence in Mexico appears to be directly tied to Calderon's 
success in confronting the transnational criminal organizations in 
Mexico, rather than an indication of the Government of Mexico's 
inability to maintain control over its territory. While the violence 
and lawlessness along the border represent a challenge to Mexican 
security, the swift and unrelenting resolve of the Calderon 
Administration should put to rest any doubts about the Mexican 
government's ability to respond to the challenges it faces.
    Mexico is a multi-party democracy, where political power changes in 
accordance with internationally-recognized election results. Along with 
many other countries, Mexico is facing the challenges posed by 
transnational criminal organizations. President Calderon and senior 
members of his government recognize that some of Mexico's institutions, 
including law enforcement and the judiciary, will need to modernize to 
meet these challenges and the United States is committed to support 
them.

DHS Effort
    In her hearing before the Homeland Security Committee on February 
25th, Secretary Napolitano outlined the four actions we must take to 
address border violence. First, she stated that, ``interaction with 
Mexican law enforcement, particularly the federal government of 
Mexico'' is vital to address the drug war. Secondly the Secretary said 
we must look ``government-wide at what we can do to stop the southbound 
export of weaponry.'' While this effort must certainly focus on the 
trafficking of small arms, which accounts for the majority of the 
illicit weapons trafficked, the Secretary went on to say we must also 
seek to stop the trafficking of ``assault-type weapons and grenades 
that are being used in that war.'' Third, Secretary Napolitano 
emphasized the need for cooperative efforts and constant interaction 
with local law enforcement. And finally, the Secretary noted the need 
for a contingency plan for worst-case scenarios.
    In support of the Calderon Administration's historic efforts, and 
in recognition of our own responsibilities for confronting 
transnational organized crime, the United States Government is also 
taking extraordinary steps to fight this scourge. DHS' statutory 
customs and immigration authorities, its operational capabilities and 
expertise, and its strategic placement along the border make DHS a key 
part of identifying, interdicting and investigating criminal activity. 
With this mission set, DHS has undertaken a number of successful 
cooperative efforts and initiatives with the GOM to assist in 
confronting drug violence on the U.S.-Mexican border.
    I would like to take this time now to highlight a few of our DHS 
efforts to strengthen the integrity of the U.S.-border. While most of 
these programs are not solely aimed at decreasing border violence, they 
all aim to stop the criminality at the border which is the precursor to 
much of the violence we are now seeing:

Border Enforcement Security Task Force (BEST)
    DHS initiated the Border Enforcement Security Task Force (BEST) 
program in 2006 as a key DHS approach to combat cross-border criminal 
activity and violence along our southern border with Mexico. DHS 
adopted the initiative to bring together federal, state, local and 
foreign law enforcement resources in an effort to identify, disrupt, 
and dismantle organizations seeking to exploit vulnerabilities along 
the southern border and threaten the overall safety and security of the 
American public. A variety of U. S. enforcement agencies participate in 
these task forces: ICE (as the lead agency); CBP; DHS' Office of 
Intelligence and Analysis (I&A); the Drug Enforcement Administration 
(DEA); the Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF); 
the Federal Bureau of Investigation (FBI); the U.S. Coast Guard (USCG); 
the U.S. Attorney's Office; and federal, state, local and foreign law 
enforcement. The result is a cooperative and comprehensive approach 
towards combating criminal organizations involved in cross-border 
crimes. The Government of Mexico has agreed to assign full-time 
representatives to each of the BESTs along the southern border.

    DHS now has 12 BESTs: eight on the southwest border; two on the 
northern border; and two at seaports. Through the BEST model, DHS has 
dismantled arms trafficking, human trafficking, bulk-cash, alien and 
narcotics smuggling organizations and their hostage-taking and murder/
kidnapping cells in the United States and Mexico. Since July 2005, the 
BESTs have been responsible for 2,034 criminal arrests, 2,796 
administrative arrests, 885 indictments, and 734 convictions. In 
addition, BESTs have seized approximately 7,704 pounds of cocaine, 
159,832 pounds of marijuana, 558 pounds of methamphetamine, 39 pounds 
of methamphetamine, 1,023 pounds of ecstasy, 213 pounds of heroin, 97 
pounds of hashish, 22 pounds of opium, 515 weapons, 745 vehicles, six 
properties, and $22.7 million in U.S. currency and monetary 
instruments.

Homeland Security Intelligence Support Team (HIST)
    The DHS Homeland Security Intelligence Support Team (HIST) was 
established in the El Paso Intelligence Center (EPIC) in the Fall of 
2007 to ensure the application of national intelligence capabilities to 
support border operations, to strengthen intelligence and information 
sharing among federal, state and local partners, and to help ensure 
that front-line operators have access to the intelligence they need to 
efficiently perform their duties. In addition to the deployment of DHS 
intelligence professionals to EPIC, DHS I&A is deploying reports 
officers and classified computer networks to key locations along the 
southwest border. The purpose is to enhance DHS' ability to rapidly and 
efficiently share critical intelligence with those who need it most, 
and significantly increase our analytic focus on border security 
issues.

Operation Against Smugglers Initiative on Safety and Security (OASISS)
    Since August 2005, CBP has worked closely with Mexican officials in 
a bilateral alien smuggler prosecutions program called Operation 
Against Smugglers Initiative on Safety and Security (OASISS). OASISS is 
a joint initiative between the United States and Mexico that enables 
both governments to share information and prosecute smugglers for 
crimes committed in the border region. Through OASISS, both governments 
are able to track and record prosecution efforts on each side of the 
border and work together to make the strongest case against these 
criminals. The OASISS program has had a significant and positive impact 
on operations, and has furthered smuggling investigations both in the 
United States and Mexico.
    During the first full fiscal year (FY06-07) of the OASISS program, 
the number of alien smuggling cases generated decreased 12% as well as 
the number of smugglers prosecuted, which also decreased 70% during the 
same time period. This decrease is a direct reflection of the success 
of the OASISS program as a tool to prevent and, especially, to deter 
human smuggling along the southwest border.

Bulk Cash
    Secretary Napolitano stressed the importance of money in reining in 
the activity of organized criminal elements along the border, telling 
the Homeland Security Committee, ``You have got to go after the money. 
You have to interrupt that chain of money that goes in the millions of 
dollars back and forth with these cartels.'' ICE has a number of 
programs to address the problem of bulk cash smuggling. One of these--
``Operation Firewall''--addresses the threat of bulk cash smuggling via 
commercial and private passenger vehicles, commercial airline 
shipments, airline passengers, and pedestrians transiting to Mexico 
along the southern border. ICE and CBP have conducted various Operation 
Firewall operations with Mexican counterparts. ICE is working to expand 
existing Operation Firewall operations to designated locations in the 
near future, including additional border crossing locations along the 
southern border with Mexico. All significant Operation seizures result 
in criminal investigations with the goal of identifying the source of 
the funds and the responsible organizations.
    ICE has also recently established a Trade Transparency Unit (TTU) 
with Mexico, located in Mexico City. The mission of the TTU is to 
identify cross-border trade anomalies, which are indicative of trade-
based money laundering. Under this initiative, ICE and law enforcement 
agencies in cooperating countries work to facilitate the exchange of 
import/export data and financial information. The establishment of our 
TTU with Mexico was completed in May 2008. ICE has provided, and will 
continue to provide, Mexico TTU representatives with in-depth training 
on the Data Analysis and Research for Trade Transparency System 
(DARTTS). ICE has already installed the system, has provided expert 
technical support, and will continue to do so as needed. Mexican TTU 
representatives have identified potential criminal targets involved in 
crimes such as tax evasion, customs fraud, and trade-based money 
laundering. The establishment of the TTU in Mexico City will benefit 
both Mexico and the United States in their efforts to combat criminal 
organizations.
    In Fiscal Year (FY) 2008, ICE's efforts through these programs 
resulted in 16 arrests, and 24 seizures resulting in $53,097,485.00. On 
January 29,2009, ICE Attache Mexico City agents and the Mexican Customs 
Vetted Unit trained in Operation seized approximately $2.4 million in 
U.S. currency from an Ecuadorian citizen at the Benito Juarez 
International Airport in Mexico City.

Firearms Trafficking
    ICE and CBP have the authority to enforce export provisions of the 
Arms Export Control Act (AECA) as specifically designated within 22 CFR 
127.4 of the International Traffic in Arms Regulations (ITAR). ICE's 
investigative priority is to prevent violent trasnationanal criminal 
organizations--terrorist groups, drug cartels, and other criminal 
entities--from illegally obtaining U.S. origin munitions and related 
technology. CBP is charged with ensuring-through inspection, 
interdiction, and other enforcement actions-that weapons and munitions 
do not cross the border illegally.
    CBP, ICE, ATF, and the DEA have developed a joint strategy referred 
to as the Southwest Border Trafficking Initiative, which is aimed at 
identifying and disrupting the illicit cross border trafficking of 
firearms and ammunition. As part of this strategy, the interagency 
group has agreed upon broad principles to identify, investigate, and 
interdict the illicit cross-border trafficking of firearms and 
ammunition into Mexico. Discussions are ongoing to address more 
detailed procedures regarding the coordination of multi-agency 
operations and information sharing. The initiative's strategy is based 
on three pillars: analysis of firearms-related data, information 
sharing, and coordinated operations.
    In June 2008, ICE formally launched Operation Armas Cruzadas to 
combat transnational criminal networks smuggling weapons into Mexico 
from the United States. As part of this initiative, the United States 
and the Government of Mexico agreed to bi-lateral interdiction, 
investigation and intelligence-sharing activities to identify, disrupt, 
and dismantle networks engaged in weapons smuggling. ICE has provided 
training in appropriate weapons laws and methods used to combat 
transnational smuggling; used its Project Shield America outreach 
program and made presentations to groups involved in the manufacture, 
sale, or shipment of firearms and ammunition along the southwest 
border; and used a Border Violence Intelligence Cell (BVIC). The 
initiation of Operation Armas Cruzadas has resulted in 104 criminal 
arrests, 30 administrative arrests, 58 criminal indictments, 42 
convictions and in the seizure of 420 weapons and 110,894 rounds of 
ammunition.
    ICE has also created a Weapons Virtual Task Force (WVTF), a 
cyberspace task force comprised of the vetted Arms Trafficking Group, 
BVIC, ICE Field Intelligence Groups (FIG), and BEST teams, which will 
post daily investigative information through the Homeland Security 
Information Network (HSIN). The WVTF will leverage the capability to 
communicate and share critical information regarding criminal 
conspiracies involving financing, acquisition, and smuggling of weapons 
across the common U.S.-Mexico border. HSIN will allow online real-time 
access to information on daily firearms seizures and arrests conducted 
by ICE, CBP and the GOM, and will create virtual communities where law 
enforcement officers can share intelligence and communicate in a secure 
environment.
    In September 2008, CBP partnered with the Bureau of Alcohol, 
Tobacco, Firearms, and Explosives (ATF) in a Memorandum of 
Understanding (MOU) regarding eTrace, ATF's internet-based paperless 
firearm trace submission system and trace analysis module. This 
application provides CBP with the ability to electronically submit 
firearms trace requests to ATF's National Tracing Center (NTC). It also 
provides CBP with the ability to analyze trace results using NTC data. 
Information acquired through the firearm tracing process can be 
utilized to solve individual cases, to maximize the information 
available for use in identifying potential illegal firearms 
traffickers, and to supplement the analysis of criminal gun trends and 
trafficking patterns.

Drug Trafficking
    Both CBP and ICE have significant responsibility in the 
interdiction of illicit drugs and contraband that cross U.S. borders, 
whether at or between ports of entry. DHS also has the authorities and 
expertise to investigate these international smuggling organizations, 
while working with our foreign counterparts and U.S. partners such as 
DEA and ATF. DHS equities support multi-agency U. S. efforts via Joint 
Interagency Task Force-South (JIATF-S) operations to interdict the flow 
of cocaine from South America to the United States.
    DHS continues to work with the Mexican Government in the 
development of increased law enforcement surveillance and interdiction 
capabilities. Of particular note is the work being accomplished by the 
CBP Air and Marine Operations Center (AMOC) in Riverside, California. 
Information is fed to the AMOC through a network of airborne early 
warning, aerostat, Federal Aviation Administration (FAA) radar, and 
ground based radar systems. Personnel at the AMOC detect aircraft 
``short landings'' and border penetrations and coordinate CBP Air and 
Marine and Mexican interdiction assets to intercept, track, and 
apprehend smugglers as they transverse the U.S.-border.

Bilateral Strategic Plan
    In August 2007, Mexican Customs, ICE and CBP signed a Bilateral 
Strategic Plan to fight tans-border crime. The Bilateral Strategic Plan 
strengthens cooperation in matters related to law enforcement by 
expanding existing institutional cooperation mechanisms and 
establishing new programs of collaboration designed to fight 
trafficking and smuggling of prohibited goods, fraud, and related 
crimes. The plan establishes four working groups addressing capacity 
building, border management, customs security, and law enforcement. All 
four working groups were formally launched in November 2007. The 
working groups will expand on existing cooperation to coordinate and 
implement joint security initiatives, efficient border management, 
integrity and capacity building assistance and joint enforcement and 
interdiction initiatives. The goal of these efforts is to enhance the 
security of our southern border with Mexico.

Border Violence Protocols (BVP)
    On March 3,2006, a bi-national action plan to combat border 
violence and improve public safety was signed by Secretary Chertoff and 
his counterpart in Mexico. This action plan set forth goals and 
objectives to ensure the appropriate law enforcement agencies of the 
respective governments work together to provide an effective, 
comprehensive joint response to incidents of cross-border violence and 
crime. In response to this plan, CBP created a headquarters bi-national 
working group to oversee the development and implementation of Border 
Violence Protocols (BVPs) along the southwest border. The BVPs have now 
been instituted along the entire U.S.-Mexico border and are working 
effectively. At the local level, the BVPs have instituted monthly 
meetings between the U.S. Government, the GOM, as well as state and 
local law enforcement officials to further develop the working 
relationships between both countries. The Border Violence Protocols are 
another example of how the United States and Mexico are working closely 
together to create a safer and more secure border region.

Non-Intrusive Inspection Technology (NII)
    CBP employs Non-Intrusive Inspection Technology (NII) at all land 
ports of entry and Border Patrol Checkpoints. This technology ensures a 
large percentage of conveyances are examined for contraband, in a non-
intrusive manner, while permitting the smooth flow of legitimate trade 
and travel. While it would require four officers approximately four 
hours to unload and thoroughly examine a commercial conveyance full of 
cargo for contraband, a large-scale NII system can produce x-ray images 
of the conveyance and cargo permitting two officers to conduct an 
examination for contraband in a matter of three to five minutes. This 
technology also prevents unnecessary damage to conveyances and cargo 
caused by manual methods of inspection and allows the officers 
utilizing the technology to see into areas that otherwise cannot be 
examined. This technology not only helps to ensure that illegal 
contraband does not cross the border but also assists us in keeping our 
country safe from weapons of mass destruction. Under the Merida 
Initiative, we are hoping to expand the use of this equipment by the 
GOM in order to expand both countries' interdiction efforts and ensure 
that our border is not the only line of defense against illicit 
materials.

Maritime Security
    The USCG has a number of cooperative programs with Mexico, 
including maritime law enforcement, port security, search and rescue, 
environmental response, and other programs that often involve the 
Mexican Navy. Cooperation in these areas was formalized through a 
Letter of Intent signed by the Secretary of the Mexican Navy, the 
Commander of NORTHCOM, and the Commandant of the Coast Guard. In recent 
months the Coast Guard has seen a significant increase in the level of 
cooperation with the Government of Mexico in obtaining authority to 
stop, board, and search Mexican flagged vessels (or vessels claiming 
Mexican nationality) suspected of drug smuggling. This includes recent 
cases in which the Mexican Government authorized a boarding in less 
than two hours after the ships were encountered. The efforts of our 
Coast Guard Attache in Mexico City, in working with his Mexican 
counterparts, have greatly contributed to the enhanced cooperation and 
the establishment of a stronger working relationship with Mexico on 
countering drug smuggling. The United States and Mexico's participation 
in summits with other regional partners, agreement on Standard 
Operating Procedures, exchanges of information about each nation's 
respective laws applicable to maritime drug smuggling, and sharing of 
experiences in maritime counterdrug operations continue to strengthen 
further the working relationship between our two countries.

Southwest Border Violence (SWB-V) Operations Plan (OPLAN)
    In her testimony on February 25th, Secretary Napolitano noted the 
need to prepare for worst-case scenarios of border violence escalation. 
For such events, DHS has its Southwest Border Violence (SWB-V) 
Operations Plan (OPLAN). The OPLAN, which will be addressed by my 
colleague in more detail, is the result of an extensive interagency 
planning effort. In a crisis situation, the Department may have to 
augment the capacity of its component agencies. As Secretary Napolitano 
told the Homeland Security Committee, in the event that spillover 
violence occurs, ``we do have contingency plans to deal with it. But it 
begins with state and local law enforcement on our side of the border. 
We support them as the first step in that contingency plan, should we 
see that kind of major spillover.''
    The OPLAN provides a layered response capacity to provide the 
appropriate level of intra-departmental and/or interagency support to 
DHS components. The plan builds on the existing plans that rely on 
federal, state, local, and tribal coordination.
    The list above is not exhaustive. Even if I could provide an 
exhaustive list of DHS programs which impact border integrity and 
mitigate border violence, no list could fully capture the day-to-day 
efforts of the DHS heroes who put their lives in jeopardy every day to 
ensure the security of our homeland. Their efforts to stop crime and 
violence along the borders of the United States are laudable.

The Merida Initiative
    The U.S. Government tailored the Department of State-led Merida 
Initiative to provide our foreign partners with the specific tools they 
each need to fight transnational organized crime and work cooperatively 
with the United States. Through an interagency working group led by the 
State Department--which facilitated discussions with Mexico and Central 
American officials and coordination with United States Government 
officials in those countries--interagency subject matter experts 
assessed the needs of each country and proposed specific items to aid 
efforts against cross-border criminals.
    DHS views the Merida Initiative as a crucial vehicle to facilitate 
cooperation and capacity building between the U.S. Government and our 
partners in the Western Hemisphere. From the DHS perspective, the 
Merida Initiative is an opportunity to more fully engage our regional 
counterparts and more cooperatively work together to deter and 
dismantle cross-border criminal organizations and the threats they 
pose. By working with both regional and U.S. partners on regional 
initiatives, DHS multiplies the effectiveness of its own border 
security efforts and helps the United States, over the long-term, 
develop sustainable security partnerships.
    In this sense, DHS sees the Merida Initiative as a step forward in 
homeland security and a significant piece of a comprehensive national 
security plan. DHS recognizes that a regional effort--which involves 
multi-national cooperation--is ultimately required to ensure the 
security of our homeland. The United States will be most secure when 
the entire region is secure. Our support for the State-led Merida 
Initiative builds capability, provides equipment, and facilitates 
interoperability so we can work fast and lean, both separately and 
together, to detect, apprehend and prosecute members of these 
transnational criminal organizations.
    The DHS Office of International Affairs works hand in hand with DHS 
components such as CBP, ICE and the Coast Guard, to support 
implementation of appropriated funds and to determine how they can be 
most effectively spent. We also work closely with the Department of 
State to enhance Mexican law enforcement capabilities and DHS's ability 
to secure the border in cooperation with Mexican agencies.

Conclusion
    In conclusion, the United States and Mexico must continue to work 
together to stem the tide of violence and crime that threatens the 
security of both our countries. Our countries have a common goal and 
both need accept their respective responsibilities: Mexico will 
continue to directly confront internal corruption and criminal 
organizations dedicated to trafficking narcotics and other forms of 
contraband, which they have done with dramatic results so far; and the 
U.S. will have to provide even greater attention to demand reduction, 
interdiction, criminal investigations, capacity building, money 
laundering flows, and southbound arms trafficking. I believe our 
current relationship with Mexico--which is already quite close--will be 
further enhanced by the Merida Initiative. I look forward to continuing 
my role in Mexico by furthering this important relationship.
    Thank you for your invitation to speak before the committee on this 
timely and important issue.

    Ms. Sanchez. Thank you, Mr. Pena.
    We will now recognize Mr. Leech to summarize his statement 
for 5 minutes or less.

      STATEMENT OF JOHN LEECH, ACTING DIRECTOR, OFFICE OF 
 COUNTERNARCOTICS ENFORCEMENT, DEPARTMENT OF HOMELAND SECURITY

    Mr. Leech. Madam Chairwoman, Ranking Member Souder, 
Chairman Thompson and members of the committee, thank you for 
the opportunity to brief you on our work on the 2009 Southwest 
Border Counternarcotics Strategy and the Department's efforts 
to protect the United States against the growing threat of 
violence.
    As you know, DHS' Office of Counternarcotics Enforcement is 
statutorily charged with coordinating the department's policy 
and operations with respect to stopping the entry of illegal 
drugs into the United States. Mexico is the transit point for 
approximately 90 percent of all cocaine consumed in the United 
States. And it is the largest foreign supplier of marijuana and 
methamphetamine to the U.S. My staff works closely with the 
department's components to strengthen the counternarcotics 
capabilities along the border in order to improve our ability 
to stop the entry of illegal drugs.
    One of CNE's most important objectives is to support policy 
and operations coordination and to ensure that DHS components 
have the resources they need to execute the department's 
counternarcotics efforts along the border. The vast geography 
and sparse population make this a difficult task for law 
enforcement and make the southwest border a prime environment 
that can be exploited for cross-border criminal activity.
    The drug trafficking organizations are extremely powerful. 
They are multifaceted smuggling organizations involved in other 
criminal activities, among them human, bulk-cash and arms 
smuggling. Drug trafficking organizations increasingly rely on 
severe violence to conduct illegal activities. The confluence 
of these activities requires a strategic approach to best 
leverage U.S. law enforcement efforts in order to dismantle 
drug trafficking organizations and their criminal networks.
    Working closely with the Department of Justice's Office of 
Deputy Attorney General, my office is currently leading 
interagency efforts to develop the 2009 Southwest Border 
Counternarcotics Strategy. This effort is being conducted 
pursuant to the Office of National Drug Control Policy 
Reauthorization Act of 2006, mandating a biennial strategy 
update and pursuant to ONDCP's request for DHS and DOJ to serve 
as the executive agent for this effort.
    ONDCP announced the first iteration of the National 
Southwest Border Counternarcotics Strategy in October 2007. The 
current update will provide a more comprehensive and 
coordinated approach for recommended actions.
    Currently, there are 10 interagency groups carrying out a 
detailed evaluation and assessment of recommendations for 
improved counternarcotics capabilities. The current process 
integrates increased consultation with state, local and tribal 
partners, and with the Southwest Border High Intensity Drug 
Trafficking Area and Fusion Centers.
    Our consultations with Congress have resulted in the 
inclusion of a chapter in the strategy to address southbound 
weapons smuggling. Another primary consideration is updating 
the Mexico chapter to ensure that the 2009 strategy is aligned 
with the Merida Initiative and expands cooperation with Mexico, 
in line with our ongoing relationship and discussions.
    The primary parameters of this strategy, as provided in 
Public Law R-2-1 set forth the U.S. Government's strategy for 
preventing the illegal trafficking of drugs across the 
international border between the U.S. and Mexico. Two, the 
state-specific roles and responsibilities of the relevant 
national drug control program agencies for implementing the 
strategy. And three, to identify the specific resources 
required to enable the national drug control program agencies 
to implement the strategy.
    In accomplishing these objectives, the 2009 strategy will 
provide recommendations for improvements in the following 
areas: intelligence and information sharing; interdiction at 
the ports and between the ports of entry; air and marine 
operations; investigations and prosecutions; countering 
financial crime; combating southbound weapons smuggling; a new 
chapter on technology; and cooperation with Mexico.
    The 2009 strategy will be focused on substantially reducing 
the flow of illicit drugs, drug proceeds and associated 
instruments of violence across the U.S.-Mexico border. This 
broad strategic goal recognizes the interconnectedness of 
various threats and that the relationship between U.S. 
government's counterdrug and other law enforcement missions 
range from complimentary to interdependent.
    Drug traffickers exploit the border in two directions, 
smuggling drugs from Mexico into the United States, and moving 
weapons and billions of dollars in illicit drug profits from 
the United States into Mexico. To achieve the goal, the 2009 
strategy will include six cross-cutting strategic objectives.
    These are: one, to enhance intelligence capability 
associated with the southwest border; two, to interdict illicit 
drugs, drug proceeds and associated instruments of violence in 
the air, at the ports of entry and between the ports of entry; 
three, to ensure prosecution of all significant drug 
trafficking, money laundering, bulk currency and firearms and 
weapons cases; four, to disrupt and dismantle drug trafficking 
organizations; five, to enhance counterdrug technologies for 
drug detection and interdiction; and six, to enhance U.S.-
Mexico cooperation regarding joint counterdrug efforts.
    To get at the root of the problem causing the violence 
along the southwest border, it is imperative that we enhance 
our counternarcotics capabilities. The 2009 strategy will 
provide detailed interagency recommendations aimed at 
supporting its strategic objectives and its overarching goal. 
The forward vision of the 5-year planning period of the 2009 
strategy is one of document's key strengths.
    In conclusion, as the violence and instability created by 
the drug press ever harder at our southwest border, it is clear 
that national attention and a national response are required. 
We are fortunate to have the backing of our interagency 
partners, support of Congress and a willing partner in Mexico 
to fight this battle aggressively.
    I would like to close with these last few remarks. I want 
to extend a great thanks and appreciation to all of you for 
your attention to this effort at this point in time.
    I also want to extend my thanks to the Office of National 
Drug Control Policy. There is a new team in town, and we look 
forward to getting a lot of things done with this team. The 
current team they have in place over there, Ed Jurith, Mark 
Kumer, Pat Ward and others were simply the best in the 
business. Congress made a wise decision to require a biannual 
update of this strategy.
    And ONDCP has entrusted my office to serve as the executive 
agents and lead this process. It is right that we do so, since 
our office oversees, within DHS, 88 percent of all counterdrug 
interdiction funding and resources for the nation.
    Last week, I returned from a trip to Mexico in order to 
become better familiar with the drug threat faced by the 
government of Mexico in my new role as the acting director. The 
government of Mexico's federal and state agency are hungry for 
change. They are weary of proliferation of drugs and violence. 
More importantly, they want to work with us at all echelons of 
our federal government, from our GS-13s to our most senior 
government employees.
    I would like to close by reading just a very, very short 
line or two from an e-mail. My team visited the Financial 
Intelligence Unit while we were in Mexico. And I asked what we 
could do, what the U.S. government could do to help their 
efforts. She wrote back, Regina Martha Gonzales.
    She says: Mr. Leech, it was a great pleasure meeting you at 
the offices of the Financial Intelligence Unit of Mexico. 
Thanks to you and your colleagues for your kind visit. Please 
know that we are overwhelmed by the openness of your proposals. 
We really want to thank you in advance for your interest in 
enhancing the cooperation among the FIU and the our 
counterparts in the U.S.
    And I heard this from every agency that I visited: the SST, 
the SRE, the FIU, their customs. They are hungry and eager to 
work with us. We have a Congress that wants to move things 
forward. And we have a White House and a secretary that want to 
do the same. So we are at a point in time to where we can 
really make a difference in this effort. Thank you.
    [The statement of Mr. Leech follows:]

                    Prepared Statement of John Leech

    Madam Chairwoman, Ranking Member Souder and Members of the 
Committee:
    Thank you for the opportunity to brief you on our work on the 2009 
Southwest Border Counternarcotics Strategy and the Department's efforts 
to protect the United States against the growing threat of violence. It 
is an honor to testify as part of a discussion on the Department of 
Homeland Security's (DHS) strategies that could help address the 
violence along the U.S. southwest border. California, Arizona, New 
Mexico and Texas are in a precarious situation. Tragically, just across 
our southern border, Mexico suffered over 6,000 narco-related murders 
last year as the drug trafficking organizations battled for control of 
drug trafficking routes to the United States. As violence south of the 
border continues to grow, we have begun to see disturbing increases in 
kidnappings, gang activity, illicit smuggling, and other drug-related 
crimes in U.S. communities and States on the northern side of the 
border. The violence has also prompted a rise in asylum requests from 
Mexican citizens. I welcome the Committee's attention to this homeland 
security threat. More importantly, I look forward to your thoughts and 
ideas as we work to seek a solution. Your input has already been 
helpful as we work to develop the 2009 Southwest Border 
Counternarcotics Strategy.
    As you know, DHS' Office of Counternarcotics Enforcement (CNE) is 
statutorily charged with coordinating the Department's policy and 
operations with respect to stopping the entry of illegal drugs into the 
United States. Mexico is the transit point for approximately 90 percent 
of all cocaine consumed in the United States and it is the largest 
foreign supplier of marijuana and methamphetamine to the United States. 
My staff works closely with the Department's components to strengthen 
the counternarcotics capabilities along the U.S.--Mexico border in 
order to improve our ability to stop the entry of illegal drugs into 
the United States.
    One of CNE's most important objectives is to support policy and 
operations coordination and to ensure that DHS Components have the 
resources they need to support the Department's counternarcotics 
efforts along the southwest border. The vast geography and sparse 
population make this a difficult task for law enforcement and make the 
southwest border a prime environment that can be exploited for cross-
border criminal activity. The drug trafficking organizations are 
extremely powerful. They are multifaceted smuggling organizations 
involved in other criminal activities, among them human, bulk-cash, and 
arms smuggling. Drug trafficking organizations increasingly rely on 
violence and terrorist type tactics to conduct illegal activities. The 
confluence of these activities requires a strategic approach to best 
leverage U.S. law enforcement's efforts in order to dismantle drug 
trafficking organizations and their criminal networks.
    Working closely with the Department of Justice's (DOJ) Office of 
the Deputy Attorney General (ODAG), my office is currently leading 
interagency efforts to develop the 2009 Southwest Border 
Counternarcotics Strategy. This effort is being conducted pursuant to 
the Office of National Drug Control Policy (ONDCP) Reauthorization Act 
of 2006 (Public Law 109-469), mandating a biennial strategy update, and 
pursuant to ONDCP's request for DHS and DOJ to serve as the ``Executive 
Agents'' for this effort.
    ONDCP announced the first iteration of the National Southwest 
Border Counternarcotics Strategy in October 2007. The current update 
will provide a more comprehensive and coordinated approach for 
recommended actions. I'm very proud of the robust interagency effort 
involved in developing the 2009 Southwest Border Counternarcotics 
Strategy. We are relying on the subject matter experts to identify the 
best and most appropriate actions to support interagency agreed-upon 
objectives.
    Currently, there are ten interagency groups carrying out a detailed 
evaluation of recommendations for improved counternarcotics 
capabilities. The current process also integrates increased 
consultation with State, local and tribal partners, and with the 
Southwest Border High Intensity Drug Trafficking Area (HIDTA) and 
Fusion Centers. Our consultations with Congress will result in the 
inclusion of a chapter in the Strategy to address southbound weapons 
smuggling. Another primary consideration is updating the Mexico chapter 
to ensure that the 2009 Southwest Border Counternarcotics Strategy is 
aligned with the Merida Initiative and expands cooperation with Mexico; 
in line with our ongoing relationship and discussions.
    The primary parameters of the 2009 Southwest Border 
Counternarcotics Strategy, as provided in Public Law 109-469, are to:
        <bullet> Set forth the U.S. Government's strategy for 
        preventing the illegal trafficking of drugs across the 
        international border between the United States and Mexico, 
        including through ports of entry and between ports of entry on 
        that border;
        <bullet> State the specific roles and responsibilities of the 
        relevant National Drug Control Program agencies for 
        implementing the Strategy; and
    <bullet> Identify the specific resources required to enable the 
National Drug Control Program agencies to implement the Strategy.
    In accomplishing these objectives, we anticipate that the 2009 
Southwest Border Counternarcotics Strategy will provide recommendations 
for improvements in: intelligence and information sharing; interdiction 
at ports of entry; interdiction between ports of entry; air and marine 
operations; investigations and prosecutions; countering financial 
crime; combating southbound weapons smuggling, technology; and 
cooperation with Mexico. While tunnels are addressed throughout the 
document, we anticipate the document will include an appendix that 
provides: (1) a strategy to significantly reduce the construction and 
use of tunnels and subterranean passages that cross the international 
border between the United States and Mexico for the purpose of illegal 
trafficking of drugs across such border; and (2) recommendations for 
criminal penalties for persons who construct or use a tunnel or 
subterranean passage for such purpose.
    The 2009 Southwest Border Counternarcotics Strategy will be focused 
on substantially reducing the flow of illicit drugs, drug proceeds, and 
associated instruments of violence across the U.S.-Mexico border. This 
broad strategic goal recognizes the interconnectedness of various 
threats and that the relationship between U.S. Government's counterdrug 
and other law enforcement missions range from complimentary to 
interdependent. Drug traffickers exploit the border in two directions, 
smuggling drugs from Mexico into the United States, and moving weapons 
and billions of dollars in illicit drug profits from the United States 
into Mexico.
    To achieve the goal, we anticipate that the 2009 Southwest Border 
Counternarcotics Strategy will include six cross-cutting strategic 
objectives. Those are:
        1. Enhance intelligence capabilities associated with the 
        southwest border;
        2. Interdict drugs, drug proceeds, and associated instruments 
        of violence in the air, at the ports-of-entry, and between the 
        ports-of-entry along the southwest border;
        3. Ensure the prosecution of all significant drug trafficking, 
        money laundering, bulk currency smuggling and firearms and 
        weapons cases;
        4. Disrupt and dismantle drug trafficking organizations;
        5. Enhance counterdrug technologies for drug detection and 
        interdiction along the southwest border; and
        6. Enhance U.S.--Mexico cooperation regarding joint counterdrug 
        efforts.
    To get at the root of the problem causing the violence along the 
southwest border, it is imperative that we enhance our counternarcotics 
capabilities. The 2009 Southwest Border Counternarcotics Strategy will 
provide detailed interagency recommendations aimed at supporting its 
strategic objectives and overarching goal. The forward vision of the 
five-year planning period of the 2009 Southwest Border Counternarcotics 
Strategy is one of document's key strengths.
    During my recent visit to Mexico, I had the opportunity to meet 
with our various law enforcement attache at our Embassy and with 
Mexican government officials. I was impressed first by Mexico's 
commitment to combat the drug cartels and root out corruption. I was 
greatly impressed by the strides made in Mexico's use of information 
technology to strategically attack the problems caused by organized 
crime and the drug trafficking organizations. DHS components have a 
long-standing history of cooperation with their Mexican counterparts. 
Advancing that relationship will be an important component on efforts 
to further strengthen U.S. border security. We hope to encourage 
increased cooperation with the Government of Mexico and we will ensure 
that the U.S. Government's activities in the 2009 Southwest Border 
Counternarcotics Strategy complement the coordination and information 
sharing facilitated through the Merida Initiative.
    The current violence along our southwest border is only symptomatic 
of a highly sophisticated, multi-billion dollar, well-armed 
transnational criminal system built on around the production, 
transportation, and sale of dangerous illicit narcotics. Further, 
narcotics smuggling and related criminal activities are localized 
problems along the border. The damage to our Nation is tremendous. 
Illicit drugs are responsible for the death of more than 20,000 
Americans each year. The social costs of the drug trade are well in 
excess of $100 billion annually. And more than $30 billion in illegal 
drug proceeds are estimated to exit this country to support drug 
trafficking and other illicit activities. The 2009 Southwest Border 
Counternarcotics Strategy will address immediate vulnerabilities along 
our border, but it will also address the threat to homeland security 
posed by the drug trade.
    As the violence and instability created by the drug trade press 
ever harder at our southwest border, it is clear that national 
attention and a national response are required. We are fortunate to 
have the backing of our interagency partners, the support of Congress, 
and a willing partner in Mexico to fight this battle aggressively. 
Thank you for your time and I will be happy to answer any questions you 
may have.

    Ms. Sanchez. Thank you, Mr. Leech. Thank you for your 
testimony.
    Mr. Nieto, I now recognize you for 5 minutes or less to 
summarize your testimony.

  STATEMENT OF SALVADOR NIETO, DEPUTY ASSISTANT COMMISSIONER, 
 INTELLIGENCE AND OPERATIONS COORDINATION, CUSTOMS AND BORDER 
                        PROTECTION, DHS

    Mr. Nieto. Thank you and good morning. Chairwoman Sanchez, 
Ranking Member Souder, Chairman Thompson, members of the 
subcommittee, it is a privilege and an honor to appear before 
you today to discuss the work of the U.S. Customs and Border 
Protection, otherwise known as CBP.
    CBP is the largest uniformed federal law enforcement agency 
in the country. We station over 20,000 CBP officers at access 
points around the nation, at air, land and seaports. By the end 
of fiscal year 2009, we will have deployed over 20,000 border 
patrol agents between the ports of entry. These forces are 
supplemented by 980 air and marine agents, 2,260 agricultural 
specialists and other professionals.
    A key and growing area of emphasis for CBP involves 
interdiction of weapons and currency. Escalating violence in 
the border regions and interior of Mexico poses a significant 
threat to both the United States and Mexico. Secretary 
Napolitano has tasked all DHS components, including CBP, to 
examine how we can increase our enforcement activities in an 
effort to mitigate southbound weapon and currency smuggling to 
the extent that resources and infrastructure currently allow.
    We have ongoing initiatives by way of short-term plus-ups, 
operations plans that call for enhanced resources that include 
state and local law enforcement agencies, the mobility of CBP 
resources from outside the immediate area, and national level 
tactical teams such as the border patrol tactical team and 
field operations special response teams. We continue enhancing 
our plans to address all threats and all hazards at the border.
    A majority of these illegal drugs consumed in the United 
States originate from or pass through Mexican territory or 
territorial seas. Huge illicit trafficking profits flow back to 
Mexico drug trafficking organizations across our common border. 
The Mexican government's ability to confront its drug 
trafficking industry and its willingness to cooperate with U.S. 
efforts directly affect the impact of any southwest border 
initiative.
    CBP has established positions at the El Paso Intelligence 
Center, the Organized Crime Drug Enforcement Task Force Fusion 
Center and the DEA Special Operations Division, to name a few. 
These initiatives enhance interaction with the intelligence 
community and law enforcement agencies. Additionally, CBP's 
Office of Intelligence and Operations Coordination established 
a national post-seizure analysis team and is in the process of 
establishing intelligence operations coordination centers in 
the field.
    The IOCCs will make CBP a more fully integrated, 
intelligence-driven organization by linking intelligence 
efforts and products to operations and interdictions. CBP works 
with other agencies to provide actionable intelligence to the 
Joint Interagency Task Force South, otherwise known as JIATF 
South. This intelligence is used to interdict the flow of 
cocaine from northern South America to the United States at the 
transit zone.
    Detection of border air incursions is essential to 
effective interdiction operations along our borders with 
Mexico. The primary means of detection is a large radar network 
monitored by the Air and Marine Operations Center, otherwise 
known as AMOC, in Riverside, California. Personnel at the AMOC 
detect aircraft short landings and border penetrations and 
coordinate CBP and Mexican interdiction assets to intercept, 
track and apprehend smugglers as they transverse the U.S.-
Mexico border.
    CBP continues its evolution to become a more integrated, 
intelligence-driven organization. And we are in the process of 
enhancing field-level intelligence and information sharing. 
Intelligence gathering and predictive analysis require new 
collection and processing capabilities.
    CBP is also developing the analytical framework for 
intelligence, a set of data processing tools that will improve 
the effectiveness of CBP and other DHS analysts in detecting, 
locating and analyzing terrorist networks, drug trafficking 
networks and other similar threats. These intelligence and 
operational coordination initiatives complement the secure 
border initiatives technology programs.
    Thank you for the opportunity to describe our plans for 
border security and to highlight some of our progress to date. 
With your continued support of DHS, CBP and ICE, I am confident 
that we will continue to make a tremendous stride in increasing 
control of our borders. I look forward to your questions.
    [The statement of Mr. Nieto follows:]

                  Prepared Statement of Salvador Nieto

    Chairwoman Sanchez, Ranking Member Souder, Members of the 
Subcommittee, it is a privilege and an honor to appear before you today 
to discuss the work of U.S. Customs and Border Protection (CBP), 
particularly the tremendous dedication of our men and women in the 
field both at and between our ports of entry.
    CBP is the largest uniformed federal law enforcement agency in the 
country. We station over 20,000 CBP officers at access points around 
the nation--air, land, and sea ports. By the end of FY 2009, we will 
have deployed over 20,000 Border Patrol agents between the ports of 
entry. These forces are supplemented with 980 Air and Marine agents, 
2,260 agricultural specialists, and other professionals.
    I am pleased to report that CBP continues to achieve success in 
performing our traditional missions, which include stemming the flow of 
illegal drugs and contraband, protecting our agricultural and economic 
interests from harmful pests and diseases, protecting American 
businesses from theft of their intellectual property, enforcing 
violations of textile agreements, tracking import safety violations, 
protecting the economy from monopolistic practices, regulating and 
facilitating international trade, collecting import duties, and 
enforcing United States trade laws. At the same time, our employees 
maintain a vigilant watch for terrorist threats. In FY 2008, CBP 
processed more than 396 million pedestrians and passengers, 122 million 
conveyances, 29 million trade entries, examined 5.6 million sea, rail, 
and truck containers, performed over 25 million agriculture 
inspections, apprehended over 720 thousand illegal aliens between our 
ports of entry, encountered over 220 thousand inadmissible aliens at 
the ports of entry, and seized more than 2.8 million pounds of 
narcotics.
    We must perform our important security and trade enforcement work 
without stifling the flow of legitimate trade and travel that is so 
important to our nation's economy. These are our twin goals: border 
security and facilitation of legitimate trade and travel.

Border Security Between the Ports of Entry
    The primary goal of our strategy between the ports of entry is to 
gain effective control of our nation's borders. Effective control is 
achieved when a Chief Border Patrol Agent determines that agents 
deployed in any given area are consistently able to: detect an illegal 
entry into the United States between the ports of entry; identify and 
classify the threat level associated with that illegal entry; respond 
to the area of the illegal entry; and bring the situation to a law 
enforcement resolution.
    During Secretary Napolitano's congressional hearing a few weeks 
ago, she explained the importance of having a border security strategy 
that incorporates the elements of effective control. Effective control 
is established through the proper mix of technology, personnel, and 
infrastructure that will allow CBP personnel to confront the criminal 
element before they can get away. Secretary Napolitano often refers to 
this strategy as the ``three-legged stool.'' One of these legs cannot, 
in and of itself, provide effective control. However, the mix of these 
three components will vary depending on the challenges of the focus 
area. Technology is the baseline requirement for any area of 
operations. It allows us to detect the entries and to identify and 
classify the threat. Personnel provide the response to confront the 
criminal element. Tactical Infrastructure supports the response by 
either providing access, or extending the time needed for the response 
by deterring or slowing the criminal element's ability to easily cross 
the border and escape.
    Essentially, two basic conditions must exist to ensure that our 
agents can safely and effectively secure our borders between the ports 
of entry. First, we must have situational awareness--that is, we must 
have knowledge about what is happening between the ports of entry. The 
knowledge must be precise and timely enough for us to react to the 
knowledge. Second, we must have the capability to react to the 
knowledge at a time, place, and manner of our choosing.
    As of the end of fiscal year 2008, we determined 757 miles of 
border were under effective control. Of that total, 625 miles were on 
the southwest border between the United States and Mexico, which is 
where a majority of illicit, cross-border activity occurs. Where we do 
not yet have control on the southwest border, we have made significant 
strides in increasing our situational awareness and tactical advantage 
over those seeking to violate our laws. With increased situational 
awareness, we can better understand where we have the highest threats 
and vulnerabilities, and assess where we need to apply our resources. 
The ability to have situational awareness also enables our agents and 
officers to perform their jobs more safely and more effectively. This 
is especially critical during times such as these where we are 
experiencing high levels of violence at our nation's borders.
    Between the ports of entry, CBP personnel involved in border 
security include Border Patrol Agents, Air Interdiction Agents, and 
Marine Interdiction Agents. Personnel in adequate number are highly 
effective resources. They can observe and therefore provide for the 
type of situational awareness that is necessary for effective control. 
Unique among the elements of the three-legged stool, personnel also 
have the capacity to respond. Personnel are highly effective and 
flexible, but the number of personnel required to perform the entire 
border security mission would be prohibitive if they were not properly 
augmented by tactical infrastructure and technology.
    Tactical infrastructure includes--among other things--pedestrian 
fence, vehicle fence, roads, and lighting. Tactical infrastructure 
supports CBP's ability to respond in several ways. Fence, for example, 
is a fixed resource that provides a constant and continuous effect. I 
wish to be very clear--fence alone does not and cannot, in and of 
itself, provide effective control of the border. It does, however, 
deter and delay illicit cross-border incursions. This continuous and 
constant ability to deter or delay is what we refer to as ``persistent 
impedance.'' There are areas of the border where we have concluded that 
we must have persistent impedance in order to achieve effective 
control, because we must at least delay attempted illicit incursions. 
These delays buy time for our agents to respond. This is critical in 
areas near cities, for example, where illicit border crossers could 
blend into the population before we could interdict them. It is also 
critical in areas where vehicles could reach nearby roads faster than 
we could respond without persistent impedance.
    Technology is an important leg of the stool. Although some refer to 
technology as a ``virtual fence,'' technology does not have the 
persistent impedance capability of a real fence. It does, however, 
provide timely and accurate information that physical infrastructure 
could not. Between the ports of entry, technology includes sensors, 
command and control systems, and communications. Technology is a 
powerful force multiplier because it has tremendous capability to 
provide the situational awareness that is a precursor to effective 
control. Sensors can ``watch'' the border continuously, guided by 
appropriate command and control systems. These command and control 
systems can also help sort the data coming from the sensors so that our 
responders have very quick access to the most critical information. 
Technology also supports response capability. With accurate information 
to identify and classify illicit incursions, agents have many more 
options about how and when they will respond to the incursion. Improved 
communications capability also supports response by ensuring our 
response forces can be properly directed and coordinated.
    Over the past year, we have made significant strides in 
strengthening all three legs of our three-legged stool. As of February 
14, 2009, we had 18,566 Border Patrol Agents on-board. We have 
identified 661 miles of southwest border where persistent impedance was 
a requirement and 610 miles of fence is already constructed along the 
southwest border. Most of the remaining mileage is under construction 
and will be complete this Spring. With respect to technology, we have 
purchased 40 mobile surveillance systems (MSSs) and deployed them to 
the southwest border. These MSSs provide radar and camera coverage and 
serve as a gap-filler while we deploy more permanent technology 
solutions. Later on in the testimony, I will provide more detail about 
our vision for those more permanent solutions.

Support of U.S./Mexican Counter-Drug and Counter-Terrorism Initiatives
    A key and growing area of emphasis involves interdiction of weapons 
and currency. Escalating violence in the border regions and interior of 
Mexico poses a significant threat to both the United States and Mexico. 
Secretary Napolitano has tasked all DHS components, including CBP to 
examine how we can increase our enforcement activities in an effort to 
mitigate southbound weapon and currency smuggling to the extent that 
resources and infrastructure allow.
    A majority of the illegal drugs consumed in the United States 
originate from or pass through Mexican territory and territorial seas. 
Huge, illicit trafficking profits flow back to Mexican drug trafficking 
organizations across our common border. The Mexican government's 
ability to confront its drug trafficking industry and its willingness 
to cooperate with U.S. efforts directly affect the impact of any 
southwest border initiative.
    CBP has established positions at the El Paso Intelligence Center 
(EPIC), the Organized Crime Drug Enforcement Task Force (OCDETF) Fusion 
Center, and the DEA Special Operations Division. These initiatives 
enhance interaction with the Intelligence Community (IC) and law 
enforcement agencies to more effectively facilitate the collection, 
analysis, and dissemination of actionable drug-related intelligence.
    Additionally, CBP's Office of Intelligence and Operations 
Coordination established a National Post Seizure Analysis Team (PSAT) 
at the National Targeting Center-Cargo and is in the process of 
establishing Intelligence Operations Coordination Centers (IOCC) with 
the first one under construction in Tucson, Arizona. The IOCCs will 
make CBP a more fully integrated, intelligence driven organization by 
linking intelligence efforts and products to operations and 
interdictions. Reciprocal benefits will be a greater capability to 
expeditiously move feedback from the end users back to the originator.
    Operation Panama Express is a multi-agency international drug flow 
investigation that combines detection and monitoring, investigative, 
and intelligence resources to provide actionable intelligence to Joint 
Interagency Task Force-South (JIATF-S) operations to interdict the flow 
of cocaine from northern South America to the United States. JIATF-S 
interdiction operations in the transit zone supported by CBP P-3 
Airborne Early Warning, Coast Guard HC-130, Coast Guard vessels, and 
CBP P-3 Tracker aircraft interdict large, sometimes multi-ton, 
shipments before they can be split into smaller loads for movement 
across the southwest border over multiple routes and distributed to 
U.S. cities, towns, and small communities.
    CBP continues to work with the Mexican Government in the 
development of increased law enforcement surveillance and interdiction 
capabilities. Detection of U.S./Mexican border air intrusions is 
essential to effective interdiction operations along our borders with 
Mexico. The primary means of detection is a large radar network, 
monitored at the Air and Marine Operations Center (AMOC) in Riverside, 
California. Information is fed to the AMOC through a network of 
airborne early warning, aerostat, Federal Aviation Administration 
(FAA), and ground based radar systems. Personnel at the AMOC detect 
aircraft ``short landings'' and border penetrations and coordinate CBP 
Air and Marine and Mexican interdiction assets to intercept, track, and 
apprehend smugglers as they transverse the U.S./Mexico border.
    The Government of Mexico sustains a strong commitment to 
interdiction. CBP will continue to assist the government of Mexico in 
maintaining its counterdrug effort, including Command, Control, 
Communications, and Information support.

Intelligence and Operational Coordination
    CBP continues its evolution to become a more integrated, 
intelligence-driven organization and we are in the process of 
establishing a robust field organization. The CBP Office Intelligence 
and Operations Coordination is in the process of developing 
capabilities which will integrate CBP intelligence and operational 
elements for more effective command and control, mission deployment, 
and allocation of resources.
    Intelligence gathering and predictive analysis require new 
collection and processing capabilities. CBP is also developing the 
Analytical Framework for Intelligence (AFI), a set of data processing 
tools that will improve the effectiveness of CBP and other DHS analysts 
in detecting, locating, and analyzing terrorist networks, drug 
trafficking networks, and similar threats. These intelligence and 
operational coordination initiatives complement SBI's technology 
programs.

Conclusion
    Thank you for the opportunity to describe our plans for border 
security and to highlight some of our progress to date. With your 
continued support of DHS, CBP and ICE, I am confident that we will 
continue to make tremendous strides in increasing control of our 
borders.
    I look forward to your questions.

    Ms. Sanchez. Perfect, exactly 5 minutes, Mr. Nieto.
    Mr. Nieto. Thank you.
    Ms. Sanchez. Thank you for your testimony.
    I will now recognize Mr. Kibble to summarize his statement 
for 5 minutes or less.

     STATEMENT OF KUMAR KIBBLE, DEPUTY DIRECTOR, OFFICE OF 
INVESTIGATIONS, IMMIGRATION AND CUSTOMS ENFORCEMENT, DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Kibble. Chairwoman Sanchez, Ranking Member Souder, 
Chairman Thompson and distinguished members of the 
subcommittee, on behalf of Secretary Napolitano and Acting 
Assistant Secretary Torres, I thank you for the opportunity to 
discuss ICE's efforts to combat cross-border crime and the 
related violence.
    ICE has the most expansive investigative authority and the 
largest force of investigators in DHS. But this challenge can't 
be addressed by one agency. Partnerships are essential. And ICE 
works closely with foreign, federal, tribal, state and local 
agencies to secure our borders.
    DHS recognizes that southbound weapons smuggling is a grave 
concern amid the growing violence along the border with Mexico. 
This violence requires a comprehensive bilateral effort. And on 
January 30, Secretary Napolitano responded by issuing a border 
security action directive which focused the wide-ranging 
authorities of the department on the violence along our 
southern border. The secretary emphasized the necessity of a 
broad, multi-agency response to attack the flow of weapons and 
money that continues to fuel the violence.
    ICE contributes to that fight principally through two 
bilateral initiatives: Operation Firewall to counter bulk-cash 
smuggling, and Operation Armas Cruzadas to counter weapons 
smuggling. The ICE-led Border Enforcement Security Task Forces, 
or the BEST, provide a comprehensive, multi-agency platform to 
fight these particular threats.
    Under Armas Cruzadas, U.S. and Mexican investigators 
synchronize bilateral law enforcement and intelligence sharing 
activities to detect, disrupt and dismantle these weapons-
smuggling networks. Key supporting actions include use of ICE's 
long-standing export authorities under the Arms Export Control 
Act, as well as newly acquired export authority that is 
particularly useful in targeting weapons smuggling.
    To more seamlessly investigate these networks that span our 
common border, BEST, ICE attache offices, a U.S.-vetted Mexican 
arms trafficking group and the ICE border violence intelligence 
cell exchange weapons-related intelligence.
    For example, in August of 2008, an ICE investigation 
developed information that was rapidly shared with Mexican 
investigators regarding a safehouse in Nogales, Sonora operated 
by hitmen for the Vicente Carrillo Fuentes drug trafficking 
organization. A subsequent search warrant at the residence 
resulted in six arrests, the seizure of police uniforms, a 
large amount of U.S. currency, 12 weapons and four stolen U.S. 
vehicles.
    Intelligence stemming from actions like this are analyzed 
on a routine basis by the border violence intelligence cell. 
And in December of last year, this cell, in conjunction with 
other DHS intelligence components, produced a strategic 
assessment of southbound gun smuggling that informed our 
current operations along the southwest border.
    Let me share another example of how ICE partners with 
others, such as ATF and local investigators, in combating 
weapons smuggling. ICE, ATF and the San Antonio Police 
Department initiated an investigation of Ernesto Olvera-Garza, 
a Mexican national that, at the time of his arrest in October 
of 2007, trafficked in high-powered, high-capacity hand guns 
and assault rifles. He LED a gun-smuggling conspiracy that 
included at least nine straw purchasers who purchased firearms 
on his behalf.
    More than 50 weapons were purchased and smuggled to Mexico 
as part of this ring. One of these weapons was recovered in 
Mexico after it was used in a gun battle where two Mexican 
soldiers were killed. Olvera-Garza has pleaded guilty and is 
pending sentencing.
    All together, since the initiation of Armas Cruzadas, DHS 
has seized 420 weapons, more than 110,000 rounds of ammunition 
and arrested 104 individuals on criminal charges.
    Another and one of the most effective methods to deal with 
violent transnational organizations is to attack the criminal 
proceeds that fund their operations. As we have hardened formal 
financial systems throughout the country, we see bulk-cash 
smuggling, particularly along the southwest border, on the 
rise. And ICE investigates bulk-cash smuggling as part of its 
cross-border portfolio.
    We conducted numerous Firewall operations with our Mexican 
counterparts using millions and millions of dollars, over $178 
million, $62 million of which was seized overseas.
    The BEST, as I mentioned before, these are the principal 
investigative platform for both Armas Cruzadas and Firewall. 
They are raided along the border in high-threat smuggling 
corridors. And they concentrate on the top threats in their 
areas of responsibility. They have been responsible for more 
than 2,000 criminal arrests, the seizure of almost 170,000 
pounds of narcotics, 515 weapons and almost $23 million in U.S. 
currency.
    ICE is committed to stemming cross-border crime and 
associated violence, throughout the deployment of BEST, Armas 
Cruzadas and Firewall. Partnering with others, we are using a 
broad range of authorities to disrupt and dismantle these 
networks.
    I thank the subcommittee for its support and look forward 
to answering any questions that you may have.
    [The statement of Mr. Kibble follows:]

                 Prepared Statement of Kumar C. Kibble

INTRODUCTION
    Chairwoman Sanchez, Ranking Member Souder, and distinguished 
Members of the Subcommittee: On behalf of Secretary Napolitano and 
Acting Assistant Secretary Torres, I would like to thank you for the 
opportunity to discuss U.S. Immigration and Customs Enforcement's (ICE) 
efforts to combat cross-border smuggling organizations and the violence 
related to their enterprises. ICE has the most expansive investigative 
authority and largest force of investigators in the Department of 
Homeland Security (DHS), and we protect national security and uphold 
public safety by targeting transnational criminal networks and 
terrorist organizations that seek to exploit vulnerabilities at our 
borders. Recognizing that partnerships are essential, ICE works closely 
across agency and international boundaries with our law enforcement 
partners at the foreign, federal, tribal, state and local level 
creating a transparent border and united front to disrupt and dismantle 
criminal organizations.
    ICE's expertise in combating smuggling organizations that exploit 
vulnerabilities in the sea, air, and land environments has proven 
essential in countering the bi-lateral smuggling of narcotics, illicit 
money, and other dangerous goods, people, and materials that threaten 
the well- being of the United States. Our law enforcement presence 
extends beyond our borders. ICE has agents in attache offices in 
embassies and consulates worldwide. I am proud of these agents who work 
with their foreign counterparts to combat crime that originates 
overseas but may eventually cross the Nation's borders.
    Let me share with you an example of the mutual security benefits we 
continue to derive through our partnerships with Mexican law 
enforcement agencies such as Secretaria de Seguridad (SSP). In August 
2008, ICE agents provided cofidential information to SSP through our 
Assistant Attache in Hermosillo, Mexico about a residence allegedly 
used to store weapons and narcotics and which was believed to be a safe 
house for security personnel (``hit men'') for the Vicente Carrillo 
Fuentes drug trafficking organization (DTO) operating in Nogales, 
Sonora. SSP executed a search warrant at this residence that resulted 
in six arrests, the seizure of police uniforms, a large amount of U.S. 
currency, 12 weapons, and four stolen U.S. vehicles. The six people 
arrested are suspected of being involved in two separate crimes: first, 
an armed confrontation on August 5,2008, in Nogales, Sonora where a 
civilian was injured after a grenade was detonated during a between two 
DTOs, and second, the murder of two Mexican nationals whose bodies were 
found with threatening messages from rival narcotics traffickers.
    DHS recognizes that southbound weapons smuggling is a grave concern 
amid the growing violence along our border with Mexico. This violence 
requires a comprehensive, bilateral effort and on January 30, 2009, 
Secretary Napolitano responded by issuing a Border Security Action 
Directive which focused the wide-ranging authorities of the Department 
on the rampant violence along our southern border. The Secretary 
emphasized the necessity of a broad, multi-agency response to attack 
the flow of weapons and money that continues to fuel the violence. ICE 
contributes to that fight through two principal bilateral initiatives: 
Operation Firewall to address bulk cash smuggling; and Operation Armas 
Cruzadas, to detect, disrupt and dismantle weapons smuggling networks. 
Particularly in Armas Cruzadas, ICE-led Border Enforcement Security 
Task Forces (BESTs) function as critical enablers in coordinating a 
comprehensive, multi-agency approach to fighting weapons smuggling. 
These DHS task forces include important partners such as Customs and 
Border Protection (CBP), Alcohol, Tobacco, Firearms and Explosives 
(ATF) and other foreign, federal, state and local task force officers. 
When it comes to countering the illicit weapons trade in particular, we 
closely coordinate our efforts with ATF, as they possess long-standing 
expertise in gun trafficking investigations and in engagement with 
Federal Firearms Licensees.

Armas Cruzadas:
    The rampant border violence along the United States/Mexico border 
is a direct result of criminal organizations attempting to exert their 
control over not only the democratically elected officials of the 
Mexican government but also rival criminal organizations. For instance, 
many of the instruments of this violence are weapons smuggled from the 
United States into Mexico.
    Criminal organizations commonly use straw purchasers with clean 
criminal histories to purchase firearms and turn them over to 
smugglers. The challenge in countering the smuggling activity is 
compounded by the reliance on the technique called ``ant trafficking,'' 
where small numbers of weapons are smuggled through multiple ports-of-
entry, on a continued basis.
    In June 2008, ICE formally launched Operation Armas Cruzadas to 
combat transnational criminal networks smuggling weapons into Mexico 
from the United States. As part of this initiative, the United States 
and the Government of Mexico (GoM) synchronize bilateral interdiction, 
investigation and intelligence-sharing activities to identify, disrupt, 
and dismantle these networks engaged in weapons smuggling. Key 
components of Armas Cruzadas include training for BEST task force 
officers and our partners in ICE's long-standing authorities under the 
Arms Export Control Act, as well as acquired export authority under 
Title 18, United States Code, Section 554 (Smuggling goods from the 
United States). This statute augments the broad arsenal of cross-border 
criminal authorities available to ICE investigators, and is 
particularly useful in targeting weapons smuggling. Another important 
Armas Cruzadas component is industry outreach, including presentations 
to groups involved in the manufacture, sale, or shipment of firearms 
and ammunition along the southwest border. This industry outreach 
includes a collaborative initiative between ICE and Mexico's 
Procuraduria General de La Republica (PGR) prosecutors to produce 
bilingual posters identifying potential penalties for weapons smugglers 
under U.S. export and Mexican gun trafficking laws. The posters solicit 
the public for information related to these schemes, and are displayed 
in shops and agencies in the border region, including ports-of-entry. 
The Government of Mexico has also distributed these posters within 
Mexico.
    In addition to outreach, more rapid exchange of information is 
essential to success in confronting the southbound weapons flow. Armas 
Cruzada strengthens bilateral communication through deployment of ICE 
Border Liaisons to sustain cooperative working relationships with 
foreign and domestic government entities; and also through a Weapons 
Virtual Task Force, comprised of a virtual online community where U.S. 
and Mexican investigators can share intelligence and communicate in a 
secure environment. In order to more seamlessly investigate the 
networks that span our common border, BESTs, ICE attache offices, a 
U.S.-vetted GoM Arms Trafficking Group, and the Border Violence 
Intelligence Cell exchange cross-border weapons-related intelligence. 
The Border Violence Intelligence Cell, housed at the El Paso 
Intelligence Center (EPIC), along with the ATF weapons desk, serves as 
ICE's central point for analyzing all-source intelligence and trends in 
firearms smuggling. In December of last year, this cell, in conjunction 
with DHS intelligence components, produced a strategic assessment of 
southbound weapons smuggling that guided increased weapons 
investigation and interdiction operations along the Southwest Border.
    Let me share an example of how ICE partners with others, such as 
ATF and local investigators, in combating weapons smuggling. ICE, ATF, 
and the San Antonio Police Department initiated an investigation of 
Ernesto Tornel Olvera-Garza of Monterrey, Mexico who first began 
trafficking in hunting rifles in June 2005. During the course of the 
investigation, agents learned that between 2006 and the time of his 
arrest in October 2007, he trafficked in high-powered, high-capacity 
handguns and assault rifles. Since his temporary visa did not allow him 
to legally buy guns in the United States, Mr. Olvera-Garza instead paid 
people in the United States to buy guns for him and lied about who the 
guns were for. Mr. Olvera-Garza organized and led the gun-smuggling 
conspiracy, which included at least nine ``straw purchasers'' who 
purchased firearms on his behalf. More than 50 weapons were purchased 
and smuggled to Mexico as part of this ring. One of Mr. Olvera-Garza's 
smuggled pistols was recovered in Mexico after it was used in a running 
gun battle where two Mexican soldiers were killed. Mr. Olvera-Garza has 
pleaded guilty and is pending sentencing.
    Since the initiation of Operations Armas Cruzadas, DHS has seized 
420 weapons, 110,894 rounds of ammunition and arrested 104 individuals 
on criminal charges, resulting in 58 criminal indictments and 42 
convictions to date.

Operation Firewall:
    Another, and one of the most effective methods to deal with 
violent, transnational criminal organizations is to attack the criminal 
proceeds that fund their operations. ICE targets those individuals and 
organizations exploiting vulnerabilities in financial systems to 
launder illicit proceeds and pursue the financial component of every 
cross-border criminal investigation. The combination of financial 
investigations, Bank Secrecy Act (BSA) reporting requirements, and 
Anti-Money Laundering (AML) compliance efforts by traditional and non-
traditional financial institutions has forced criminal organizations to 
seek other means to transport illicit funds across our borders. As we 
have hardened these formal financial systems, the smuggling of bulk 
currency out of the United States, especially along the Southwest 
Border, has continued to rise. ICE, as the investigative agency with 
jurisdiction over all border crimes, can investigate bulk cash 
smuggling (BCS) crimes, which are predicated on the failure to file a 
Currency and Monetary Instrument Report (CMIR).
    The ICE Office of Investigations (0I), along with the ICE Office of 
International Affairs (OIA) and CBP. coordinates with our state, local, 
and foreign partners on BCS operations. These operations disrupt the 
flow of bulk cash that can be used by terrorist groups, drug 
traffickers, and other criminal organizations. ICE, in concert with 
CBP, also provides money laundering training and BCS interdiction 
equipment to our law enforcement partners in the United States and 
abroad.
    ICE has a number of initiatives to address BCS. Operation Firewall 
focuses on the threat of BCS via commercial and private passenger 
vehicles, commercial airline shipments, airline passengers, and 
pedestrians. Since 2005, Operation Firewall efforts have been enhanced 
to include jump team surge operations targeting the movement of bulk 
cash destined for the southwest border for smuggling into Mexico. ICE 
and CBP have conducted various Operation Firewall operations with 
Mexican customs and the ICE-trained Mexican Money Laundering Vetted 
Unit. Many Operation seizures result in criminal investigations to 
identify the source of the funds and the responsible organizations.
    ICE's experience in conducting international money laundering 
investigations has identified numerous smuggling routes and 
methodologies used by criminal organizations to launder illicit 
proceeds. This experience enables ICE, CBP, and our domestic and 
international partners to concentrate resources. Initially, Firewall 
operations in Mexico focused on the targeting of commercial flights 
from Mexico City to Central and South America. In 2008, based on our 
experience, we expanded Mexico Firewall operations to target shipments 
in containers departing from the seaport of Manzanillo and the airports 
of Tuluca, Mexicali, Cancun, and Guadalajara. Throughout operations in 
Mexico, ICE and CBP personnel have trained our Mexican law enforcement 
partners on passenger analysis and investigative techniques proven 
effective in the United States.
    Operation Firewall produced immediate results. On the first day of 
operations in 2005 at the Benito Juarez International Airport in Mexico 
City, Mexican authorities seized $7.8 million en route to Cali, 
Colombia concealed inside deep fryers, rotisseries, and voltage 
regulators. Other notable seizures include $7.3 million seized inside 
rolls of fabric and plastic and $4.7 million concealed inside air 
conditioning equipment and metal piping destined for Colombia. Since 
its inception, Operation Firewall has resulted in the seizure of over 
$178 million including over $62 million seized overseas, and 416 
arrests.
    On June 26,2008, Rafael Ravelo, a member of a Mexican based 
narcotics trafficking organization, was sentenced to 126 months of 
incarceration and the forfeiture of $1,147,000. This sentence was the 
result of the ICE-led Operation Doughboy, an investigation that was 
initiated prior to Operation Firewall, based on a bulk cash smuggling 
interdiction. This joint U.S./Mexico investigation involved the 
monitoring of 18 phone lines of the heads of a Mexican narcotics 
trafficking organization and began when ICE agents in 2003 successfully 
linked a $149,000 bulk cash seizure by the Texas Department of Public 
Safety to the narcotics trafficking organization.

Border Enforcement Security Task Force (BEST):
    As I mentioned before, the principal investigative platform for 
both Operations Armas Cruzadas and Firewall are the Border Enforcement 
Security Task Forces (BESTs). These task forces were specifically 
created to address border violence.
    In July 2005, in response to increased violence in Nuevo Laredo, 
Mexico and Texas, ICE, CBP and other federal, state, and local law 
enforcement agencies, including Mexican agencies, expanded the ongoing 
Border Crimes Initiative by creating an international, multi-agency 
initiative, Operation Black Jack. This initiative used the respective 
authorities and resources of its members to dismantle cross-border 
criminal organizations. In its first six months, its target-driven 
focus led to the dismantling of a murder/kidnapping cell operating on 
both sides of the border, including the seizure of high-powered fully 
automatic weapons and live grenades; the components to make over 100 
improvised explosive devices (IEDs) such as pipe bombs and grenades; 
and over $1 million in U.S. currency.
    Based on the success of Operation Black Jack, DHS established the 
first BEST in Laredo, Texas in January 2006. Since that time, we have 
established 12 BESTs: eight on the Southwest Border; two on the 
Northern Border; and two at seaports. BEST participants include: ICE 
(as the lead agency); CBP; ATF; the Drug Enforcement Administration 
(DEA); the Federal Bureau of Investigation (FBI); the U.S. Coast Guard; 
the U.S. Attorney's Office; and other federal, state, local and foreign 
law enforcement.
    The BESTs are arrayed along the Southwest Border in high-threat 
smuggling corridors in: Arizona--Tucson (March 2006), Phoenix (March 
2008); and Yuma (March 2008); Texas--El (October 2006) and Rio Grande 
Valley (March 2007); and California--San Diego (November 2006) and 
Imperial Valley (June 2008). In early 2008, the first Northern Border 
BESTs initiated operations in Blaine, Washington (February 2008) and 
Buffalo, New York (March 2008). Each BEST concentrates on the prevalent 
threat in its geographic area, including: cross-border violence; 
weapons smuggling and trafficking; illegal drug and other contraband 
smuggling; money laundering and bulk cash smuggling; human smuggling 
and trafficking; transnational criminal gangs; and tunnel detection. 
Recently, we established BESTs at the seaports of Los Angeles, 
California (October 2008), and Miami, Florida (November 2008) to focus 
on maritime threats including the importation of contraband; commercial 
fraud; cargo theft; unlawful exportation of controlled commodities and 
munitions; stolen property; alien smuggling; and exportation of illicit 
proceeds. These BESTs will target internal conspiracies of corrupt 
transportation employees who participate in the smuggling of contraband 
and humans. Crucial to our success is the cooperation of our 
international partners. At BESTs on the Southwest Border, we have the 
participation of the Mexican law enforcement agency, SSP. On the 
Northern Border and in the northern BESTs, we have Canadian law 
enforcement agencies such as the Canada Border Services Agency, the 
Royal Canadian Mounted Police, the Ontario Provincial Police, the 
Niagara Regional Police Service, and the Toronto Metropolitan Police 
Service. In addition, we have the participation of the Argentinean 
customs agency at our Miami BEST. Through the interaction and 
coordination of all the member agencies, BESTs provide for immediate 
and international enhanced information sharing on border violence due 
to geographic proximity to the U.S. borders.
    Through BESTs, we have dismantled arms trafficking, bulk-cash, 
alien and narcotics smuggling organizations and their hostage-taking 
and murder/kidnapping cells in the United States and Mexico. Since July 
2005, the BESTs have been responsible for 2,034 criminal arrests, 2,796 
administrative arrests, 885 indictments, and 734 convictions. In 
addition, BESTs have seized approximately 7,704 pounds of cocaine, 
159,832 pounds of marijuana, 558 pounds of methamphetamine, 39 pounds 
of crystal methamphetamine, 1,023 pounds of ecstasy, 213 pounds of 
heroin, 97 pounds of hashish, 22 pounds of opium, 5 15 weapons, 745 
vehicles, six properties, and $22.7 million in U.S. currency and 
monetary instruments.
    I would like to share a few of our successes with you: the 
discovery and repatriation by the El Paso BEST of one of Mexico's top 
ten most wanted fugitives; the arrest by the Laredo BEST of a weapons 
trafficker supplying cartels with assault rifles used to murder Mexican 
police officer Navarro Rincon and others; the arrest by the Laredo BEST 
of a member of the Mexican Mafia in possession of approximately 897 
pounds of smuggled marijuana after he attempted to run over a Texas 
Department of Public Safety officer; and the arrest by the LA Seaport 
BEST of an arms trafficker and seizure of 38 military style weapons.

CONCLUSION
    In conclusion, ICE is committed to stemming the cross-border 
criminal activity and associated violence through the deployment of the 
BESTs, Operation Armas Cruzadas, and Operation Firewall. Partnering 
with others, we are using a broad range of authorities, including the 
most sophisticated investigative tools available, such as certified 
undercover operations and electronic surveillance operations, to 
disrupt and dismantle these networks.
    I thank the Subcommittee for its support of ICE, CBP, DHS and our 
law enforcement mission. I would be happy to answer any questions that 
you may have at this time.

    Ms. Sanchez. I thank all of the witnesses for your 
testimony. And under the committee rules, each member will have 
5 minutes to ask questions of our witnesses. And I will begin 
by asking the questions.
    Mr. Kibble, there have been several other hearings, 
especially this week, with respect to the violence at the 
border. And you just talked about Armas Cruzadas. I would like 
to know how that differs from the gunrunner program that the 
Alcohol, Tobacco and Firearms agency has.
    More importantly, I would like you to talk a little bit 
about what you believe are the different roles of the ATF 
versus the role that DHS and specifically your agency might 
have at the border, and how you work together or don't work 
together, or what you need. What message do you need either 
sent to the secretary or to the president? Or is there a need 
to do legislation or clarify roles from the Congress so that 
the two agencies, if they are not working well, can ensure that 
we do a good job?
    Mr. Kibble. Chairwoman Sanchez, thank you for the question. 
We actually are working very well together. I review the daily 
Armas Cruzadas reporting. And I would say more than 90 percent 
of those investigations that I follow are joint investigations 
with ATF in the field. And we complement one another, because 
ICE, through the Arms Export Control Act and with the 
implementing regulations under the ITAR, is designated as the 
sole investigative agency to deal with exports of weapons to 
Mexico.
    However, ATF brings their expertise to the sources of these 
weapons, the gun shows, the federal firearms licensees over 
which ATF has sole jurisdiction. And working together, we 
really are starting to put together some great investigations. 
They will uncover, for example, a straw purchasing scheme 
associated with a particular gun dealership. And we will bring 
our cross-border smuggling expertise to identifying the network 
that is moving those weapons from the interior of our country 
into Mexico.
    We have been served for decades now with a previous MOU 
that governed the former agencies that composed ICE when the 
Department of Homeland Security was created. And that MOU made 
it very clear that ATF handled the inbound weapons trafficking 
as well as domestic trafficking violations. And ICE focuses on 
the outbound smuggling of weapons.
    We have been working together and engaging with ATF at the 
headquarters level. Just last week, I was meeting with my 
counterpart over there. And what we are looking to do is 
basically update the memorandum of understanding and not 
looking to--I assured him that ICE has no interest in trying to 
insert ourselves into their area of expertise, having to do 
with the federal firearms licensees. And he assured me that ATF 
has no interest in trying to get into the illegal export aspect 
of those weapons.
    So I think the roles are very clear, certainly by statute. 
And we are going to update this memorandum of understanding so 
it is clear to----
    Ms. Sanchez. When will that memorandum be updated and 
signed?
    Mr. Kibble. It is in process ma'am. We expect feedback from 
ATF. It resides with them right now. We expect feedback from 
them very soon. He assured me that we would be able to--
    Ms. Sanchez. How many personnel from ICE work in this area 
of guns moving from the U.S. to Mexico?
    Mr. Kibble. We have several hundred that will address this 
issue in one way or another. I think the important distinction 
to make here is that these cross-border criminal networks don't 
just deal in the weapons. And that is one the advantages that 
ICE brings, is that we have a comprehensive cross-border 
criminal authority that can help us to attack the inbound drugs 
and the outbound flow of guns and money that, in some respects, 
can be moved by some of the same layers that belong to a 
particular network.
    So directly, we have several hundred that are addressing 
the outbound flow of weapons. But we have the largest 
investigative footprint along the southwest border, more than 
1,000 agents. And all of those agents are potentially available 
to surge their efforts to address threats as they emerge.
    Ms. Sanchez. Thank you.
    Mr. Nieto, following up with the questions that I just 
asked Mr. Kibble, why is it--people ask me all the time. Why is 
it so easy to cross from the United States into Mexico and so 
hard to cross from Mexico back into the United States?
    And with respect to this issue of gun trafficking and 
currency trafficking, what do you believe--what happens now and 
what do you believe needs to happen as people are headed south 
into Mexico? Should we be checking them? Should Mexico be 
checking them? Should we both be checking them? Are we checking 
them? What can we do to spot and particularly these arms?
    Mr. Nieto. I think it is a shared responsibility. I mean, 
they should be checking people going into their country. And we 
should have some kind of impact on what is leaving our country. 
And we do that in a surge capacity at this point. We don't have 
the personnel or the infrastructure to do full outbound 
inspections. The ports of entry are not set up for that right 
now. There are officer safety issues, because as vehicles go 
south, there are seconds to minutes before they are in Mexico. 
So there is an officer safety issue.
    But we are looking at what those needs are going forward 
and identify them. And then looking for the adequate resources 
to make sure that we can do that in a more sustained effort.
    Ms. Sanchez. Have you seen a bigger effort by Mexico with 
respect to checking vehicles as they come across? I know for 
example, and I haven't been across for a while. But when I go 
from California into the TJ/Ensenada area, there really isn't 
an American officer. You just kind of go through most of the 
time. Sometimes you are just kind of waved through.
    And then to the Mexican officers, the main, you are either 
like designated to pull over. Or you are just sort of waved 
through. And there is really no barriers. There is no security 
for the officers. Have they changed that at any of the 
crossings? Are they doing more inspection?
    Mr. Nieto. They are looking at doing that. They are looking 
at using license plate readers as well. And part of the Merida 
Initiative will assist them in that. I think right now what you 
get is either a red light or a green light that determines 
whether you are going to be inspected or not.
    So part of the training in the Merida Initiative as well is 
for us to give them some of that training for inspections as 
they have vehicles going to their country.
    Ms. Sanchez. Thank you.
    And Mr. Pena, I have one question before I turn the time 
over to Mr. Souder. You have a unique perspective, because you 
are inside of Mexico. You get to see what is going on. You get 
updates from the different pieces of the department. You talk 
to people.
    There have been various travel alerts from the Department 
of State with respect to Americans going to Mexico. And one of 
the things I worry about being a Californian is that there is 
so much commerce and tourism and--you know, I mean, sometimes 
you can go into some places in Baja, California. And you would 
think that you were in America, because there are so many 
Americans there now. There are so many people who travel back 
and forth and second homes and vacation homes and all.
    And all of a sudden, we keep reading and hearing that there 
is so much violence, people are afraid to go now. And that 
could cause some real economic concerns and some even bigger 
problems for us with respect to Mexican natives along the 
border area and working with the narco trafficking people.
    Can you tell me, you know, if somebody asks me should they 
go down to Ensenada to their weekend home, you know, what is 
the response? Because, you know, I travel a lot. And I always 
think you need to be alert wherever you go. Is it the same 
thing? Or are innocent bystanders really, you know, just 
getting picked up and slaughtered down there? What is going on?
    Mr. Pena. Thank you, Chairwoman, for the opportunity to 
address that question. Maybe I can answer it in this way first 
is that my two sons just came to visit me for their spring 
break then to Mexico City. They flew into Mexico City for the 
start. We went to Guadalajara. We interacted with quite a few 
people I have met in Mexico City. And none of the conversations 
that took place have anything to do with the violence and the 
security situation that is going on.
    That is very much in isolated pockets of the country. I 
think there is a lot of attention being brought to it. But it 
is in very isolated areas. And it is dealing with people that 
are involved in criminal activity, the majority of this 
activity that takes place, that we read about are in areas that 
involve people that are involved--criminal element.
    Certainly there has been. I can't minimize the fact that 
some innocent people have been affected. But it is not the 
climate that I believe is being portrayed. Again, my son left 
Guadalajara and went to South Padre Island. I am a little bit 
more concerned what trouble he might get into on South Padre 
Island hanging out there.
    Mexico is, I believe--again, my family is there. I interact 
with Mexicans all the time. There is not this alarmist that 
they see, believe that the country is unsafe to be in.
    Ms. Sanchez. So if my 70-year-old mother wants to go down 
to her second home in Ensenada. And she is driving her 1992 GM 
and just staying on Highway 1 all the way down and not calling 
attention to herself, she is probably going to make it without 
any problems?
    Mr. Nieto. Yes, ma'am. She certainly would. And if she ever 
did, please feel free to contact me. See I am just happy to 
help in any way I could.
    But no, honestly ma'am, I think, Chairwoman, it is not to 
the degree that is being publicized. I think what has happened 
is that the cartels have saw what happened.
    And I will maybe give the example of when Daniel Pearl was 
executed or some--the decapitation. They saw that the fear that 
that can place in individuals. And that they are sending 
messages. These people, these cartels, operate strategically. 
They have tactics that they are using to intimidate and to put 
fear.
    But it is not affecting U.S. citizens. It is not affecting 
Mexican citizens to the degree that I would say--everybody 
needs to be cautious. You have to know your environment where 
you are going. But to say that people shouldn't be coming into 
Mexico and traveling and enjoying themselves, I think it is not 
to that degree at all, ma'am.
    Ms. Sanchez. Thank you, Mr. Pena.
    I will recognize my ranking member, Mr. Souder, for 5 
minutes.
    Mr. Souder. Thank you.
    Wouldn't you say that most of the murders are occurring 
right along the border?
    Mr. Nieto. Yes. The high percentage of the murders, sir, 
are in border cities where they are trying to control the 
lucrative transit route into the U.S.
    Mr. Souder. Because there are so many areas, and we have 
lots of members who want to question. And it is going to be 
ongoing as it has gotten national attention. But I want to make 
a couple of points.
    First with Mr. Leech and the counternarcotics office. If 
there was a ever a reason that--or let us say it is more 
evident now than was ever apparent at the beginning of the 
creation of the Department of Homeland Security why Speaker 
Hastert, I and others pushed to get a counternarcotics office 
in the Department of Homeland Security.
    It has been a little like the debate regarding Afghanistan. 
Oh, we are fighting terrorism. We don't have to worry about 
heroin. Well, what do you think your opponents are arming 
themselves with? They aren't making computers there. They 
aren't making all sorts of other things. In Afghanistan, they 
are using heroin with which to cash fund the terrorism.
    The same thing is true with the narcotics here. Those 
products may change. But counternarcotics is such a big 
business. Whether or not you change laws on marijuana or 
whatever, it is not like oh, well, we will fold now. The 
cartels are funded by whichever narcotics happen to work. If it 
happens to be prescription drugs, cocaine, heroin, 
methamphetamine, marijuana, whatever gets them money. And if we 
don't track them, we are not going to be able to secure our 
borders.
    And I want to thank you and the counternarcotics office. 
Hopefully we can keep that strong, because the evidence in the 
relationship in the cartels, and the drug violence, and how 
that can spread to the United States, I think, is more clear 
than ever why narcotics and terrorism can't be separated.
    I also want to raise to Mr. Nieto, one of the big 
challenges--and Mr. Kibble was addressing this too. And that is 
that we have, in the Justice Department, when we look at 
narcotics, when we look at financing, we run into the Treasury 
Department, we run into the narcotics department. This is not 
new to the Department of Homeland Security. Customs had this 
challenge when it was over in Treasury. DEA was in Justice; 
border patrol, immigration, that no--there isn't going to be 
such a thing as a clean division between authorities.
    That is why the IBET teams, the--those type of things are 
critical. And we need to look at--when we have violence threats 
to the proportion we do, is where are your specific financial 
requests? What regulation changes you need to push that 
collaboration.
    But Mr. Nieto, one of my concerns--and this is that the 
challenges in the Department of Homeland Security are, whether 
it is the Coast Guard having to do sailboats the tipped over 
and fisheries as their day-to-day. But they are watching for 
terrorists and then counternarcotics; whether it is the border 
patrol, where mostly they are dealing with illegal immigration 
then narcotics and hunting for the occasional terrorist threat 
that comes through; whether it is ICE.
    You are different missions. You have day-to-day. And then 
you have the kind of the highest priority type of things. But 
we put you all in the Department of Homeland Security in a 
hierarchy. You have your day-to-day. And then the high-risk 
things to the country.
    One of my concerns--and don't mistake this. I don't want 
anybody to fall over when I make this statement. But that in 
the legacy customs division, partly there you had the financial 
tracking. And you had an experience level. And by blending it 
with immigration, because I believe we need more enforcement. 
And you are the only agency to do enforcement on illegal 
immigration, which would include terrorism.
    But by not getting additional agents, and by putting and 
diverting some of the ICE personnel to immigration, all of a 
sudden I am concerned that we are losing some of the people who 
can do the financial tracking and the organizational tracking. 
And that is going to be one line of questioning that I will be 
pursuing during the next 2 years, because we have to do both 
strategies. And they are not necessarily the same strategy. But 
often they are the same people. Is that----
    Mr. Pena, I wanted to--and would welcome anybody else to 
address this. That this is the broader question. There is a lot 
of misunderstanding that drug cartels are just drug cartels. 
And this is a brand new phenomenon in Mexico. In fact, since 
the DO and even before that in the earlier presidents, we saw 
these cartels strengthening their control, buying governors 
throughout Mexico and so on. And what we see now is President 
Calderon taking them on.
    I want to see how you feel about this example. To me, it is 
very much like the movie Godfather, that you have different 
groups. The violence comes when one dies or one gets taken out. 
They fight for the turf. That they aren't--while they may start 
in narcotics, the fact is that once they gain control in a 
region, they smuggle and handle whatever it is. If there is a 
high-level terrorist, they can do that. If it is shaking down 
local businesses.
    Yet the reason President Calderon is taking them on is not 
just because of narcotics. He sees a counter-government form, a 
sub-government with an enforcement personnel that can out-shoot 
and overpower his local law enforcement in every zone. And this 
isn't just about narcotics. These cartels become the 
alternative form of police state. Would you agree with that?
    Mr. Pena. Congressman Souder, certainly I will agree with 
the fact that these criminal elements do not stay unique to one 
set of crimes. They are multi-faceted criminals. They will move 
aliens. They will move money. They are involved in 
prostitution. They are involved in extortion. They are involved 
in kidnapping. And they are fighting for lucrative roots that 
they want to control.
    That involves corruption. It involves murders, 
intimidation. And certainly, there has been cases where they 
will attempt to compromise political officials, mostly at the 
lower levels. We are not seeing it at the higher level 
position.
    Recently, John Leech and I went down to the southern border 
with Guatemala. And we met with the governor of the state of 
Chapa. And he was telling us that his big concern is weapons 
also coming in from the Guatemalan area into Mexico.
    But the illegal alien trafficking that takes place through 
the southern border of Mexico, it is eventually going to 
transit through Mexico into the United States. And that the 
Zetas, one of the Gulf cartel's enforcement arm, is heavily 
involved in making millions of dollars in the flow of illegal 
aliens in that region, sir.
    So I would agree that they are involved in just--they are 
organized crime. They are just, as you clearly stated----
    Mr. Souder. The narcotics is a method of getting the cash.
    Mr. Pena. Yes. Yes, sir.
    Mr. Souder. Thank you.
    Ms. Sanchez. Next person would be Ms. Jackson Lee for 5 
minutes.
    Ms. Jackson Lee. I thank the chairwoman very much. And I 
appreciate very much each and every one of the witnesses. And 
frankly, I think that we are at a point of major calamity with 
the recognition that you all are extensively spreading your 
efforts. And we appreciate it.
    But I believe that this is a crisis of major proportion. 
And I do think it is a crisis. And I do respect the work that 
President Calderon is doing. And one of the things that I think 
should be important is the friendship and relationship with 
Mexico stand, that the government and the people of Mexico no 
more want this kind of violence than we would like it.
    But it is important to note that, since 2007, 7,500 people, 
almost double the number of U.S. troops killed in Iraq since 
2003, have died; that there have been bribes and cruelty and 
beheading; that in spite of the suggestion of a 2,000-mile 
border wall, this kind of havoc has continued.
    The amount of money that is being made, $39 billion from 
the sale of methamphetamine and other drugs in the United 
States alone. And so any business like that causes anyone 
engaged to lose all of their morality. No one cares about any 
form of human life.
    And frankly, what the real crux of the issue is is how this 
drug war at the border can create such havoc that all of a 
sudden, the terrorists of the world begin to spotlight and see 
opportunities for engaging and being involved unseen, the focus 
being on drugs and narcotics, the big money that is needed to 
fuel terrorist activities around the world.
    Some years ago in this committee, we were thinking or 
talking about OTM, that they were the crux of what we needed to 
fear in terms of those who might walk across the border and do 
havoc. Well now, the OTMs may be subordinate to drug cartels 
and drug actors, but individuals who would be carrying that 
kind of armor, if you will, terrorist intent, but involved in 
the drug cartel.
    So let me ask these questions very quickly. One, Mr. Nieto, 
were you talking--who was talking about the agreement between 
ATF and--it was Mr. Kibble?
    First let me say this. Unless we as Americans recognize the 
role that we play with the free flow of weapons of guns, we are 
in trouble. Frankly, ATF and your office, obviously, every day 
faces up to individuals with illegal weapons. And we cover this 
up with the Second Amendment.
    And I frankly believe that there has to be legislative 
initiative, which will be a tough thing to pass in this 
Congress, on dealing with the increasing numbers of weapons 
that we are providing for the gang wars on the border, which 
can also be provided for terrorists.
    So I wasn't understanding what you were saying very 
quickly. And I just need a quick answer. You were talking about 
overlapping jurisdiction. Is there a jurisdictional fight 
between ICE and ATF?
    Mr. Kibble. No, ma'am. There isn't. I mean ATF focuses on 
the----
    Ms. Jackson Lee. I understand what they focus on. But what 
are you agreeing about or not agreeing about? As far as I am 
concerned, your jurisdictions should just merge. Get the 
illegal weapons out of here. So what is the agreement that you 
are talking about?
    Mr. Kibble. It is just to clarify roles and 
responsibilities.
    Ms. Jackson Lee. Okay. I will try to meet with you in my 
office. I just think that we need to expand roles and 
responsibilities and have people working together. And wherever 
you find a gun, if it is ICE, get it off the street. If it is 
ATF, get it off the street. I am on Judiciary.
    Let me ask the gentleman--and thank you for that.
    Let me ask the gentleman with Customs and Border Protection 
and ask whether the border patrol agents are getting any extra 
training on drug interdiction or drug fighting or drug wars, 
because I understand that they have a certain bend to them. Are 
they getting any extra training, or you have any people 
relating to that expertise?
    Mr. Nieto. Thank you, ma'am, for that question.
    Ms. Jackson Lee. And while you are doing that, since my 
time is running out, would you--because I am getting ready to 
offer legislation in any event. The power boats, helicopters, 
more boots on the ground in terms of Custom and Border Patrol. 
I know you had a big push, if you will, a couple years ago. But 
I think you need more. So can you talk to the needs please of 
your agency as it relates to these drug wars.
    Mr. Nieto. Sure thing, ma'am. Thank you. The training that 
you asked about initially, yes we do train our agents. And we 
train them in a fashion that they encounter and an all threats, 
all hazards, not necessarily for just narcotics, terrorists, 
illegal immigration, aliens from special interest country.
    Whatever it is, they are trained to interdict anything that 
is coming across that border--very tough academy to go through 
initially. And they go through training as they progress 
through their initial 2-year intern time period, probationary 
period. And training never ends. I mean, in-service training 
continues.
    In regards to the amount of agents, we currently have the 
personnel to adequately address any threat that may present 
itself to us along the border. We also have plans in case, for 
some reason, we have to draw from resources from outside of 
that area, or from DHS and plans to also have the military come 
in, I that is the case.
    I mean, we have been working with the military for over 20 
years through the Joint Task Force North that is currently 
located in El Paso. That is not new to them. It is not new to 
us. They have helped us in a non-enforcement role. You may 
remember Operation Jumpstart a couple of years ago.
    So that relationship exists. A lot of their people know the 
areas already. Do we have the personnel to adequately address 
threats that we are seeing out there right now? Yes, ma'am, we 
do.
    Ms. Sanchez. Mr. McCaul for 5 minutes.
    Mr. McCaul. Madam Chair and thank the witnesses.
    The numbers are staggering in terms of the violence 
occurring in Mexico. I do commend President Calderon for his 
courageous efforts. I think most in the Congress recognize 
that.
    There are over 6,000 deaths associated with organized crime 
in Mexico. Last year more than the Iraq and Afghanistan 
conflicts combined. The Department of Justice said that 230 
cities in the United States are now impacted by what it 
considers the number one organized crime threat. That is the 
Mexican gang element. It is of serious concern to the American 
people.
    Just in my state, just south of the border, we have a map 
depicting the violence occurring south of the Texas border. In 
Juarez, Chihuahua, you can see the escalation of violence. I 
know all of you are familiar with what is happening there in 
the escalation of troops that are being sent there by President 
Calderon. It has gotten so bad that the police chief resigned 
because of the killings of police officers. And then the mayor 
of Juarez sent his family to El Paso.
    These are real concerns to us. Just the other day, the 
governor of my state asked for an additional 1,000 troops. Just 
yesterday, the governor of Arizona asked for National Guard. 
Just yesterday, President Obama actually mentioned the use of 
the National Guard down at the border. And he referred to a 
tipping point. Wasn't sure where the tipping point was going to 
be.
    That is my first question to you, Admiral. When are we 
going to hit the tipping point where we do need the use of the 
National Guard and the military down at the border?
    Admiral Rufe. Well, first let me talk about the violence on 
the border, because you certainly characterized it accurately 
as to the level of violence, which is indeed falling in Mexico, 
right on the border. And we are very concerned about that, and 
certainly concerned about the spillover.
    That said, I think the chairwoman and the ranking member 
characterized it pretty well in their opening remarks about 
what the level of violence is on our side of the border. It is 
a bit of a mixed picture. Certainly kidnappings are up. And 
that is of great concern in Phoenix and other places. But along 
the border, actually the border cities are experiencing a lower 
crime rate, violent crime rate, than they have in the past.
    So that, to a certain extent, is a good news story on that 
score. And the Board of Mayors just emphasized that just in the 
past week. So we are not so concerned, at least at this point, 
about that violence spilling over into our cities. El Paso, in 
fact, has one of the lowest crime rates in the United States. 
And it is right across from Ciudad Juarez.
    That said, our contingency plan is designed to address 
escalating levels of violence should that happen. And as Sal 
mentioned a moment ago, the way the plan is set up is that we 
would phase through, where we would exhaust all of the 
resources of the federal government, short of DOD and National 
Guard troops before we would reach that tipping point.
    There is no real bright line as to what that tipping point 
would be, because scenarios are so different. But within the 
planning process, we have identified the capabilities that we 
would need if that was required. And we are working very 
closely in the planning process right now with our brethren in 
the National Guard and the Department of Defense to make sure 
we are ready when the time comes.
    But as the president said yesterday, we very much do not 
want to militarize our border. So that is essentially a last 
resort. But we are planning for it if it becomes necessary.
    Mr. McCaul. I believe Secretary Napolitano used that 
wording, last resort. I have tremendous respect for her being a 
former U.S. attorney, attorney general for a state and governor 
of a border state. I think she understands this issue very 
well.
    I am a ranking member on the intelligence subcommittee. And 
I know there has been some discussion about intelligence 
sharing. I know it is sometimes difficult with Mexico, given 
the corruption issues. I know CSEN has been very reliable in 
the past. It is their sort of CIA equivalent.
    Can you, anybody on the panel who can answer this, discuss 
the intelligence sharing and how well it is being shared. 
Obviously, the better intelligence we have on these drug 
cartels in conjunction with the Merida Initiative, the more 
capability we are going to have to eradicate these drug 
cartels.
    Mr. Pena. Well, the El Paso Intelligence Center is located 
right on the border and is our primary location for sharing 
information with state and locals and across the federal 
government on the border for this particular mission. What I 
ask the--Sal maybe to add more to that if he would like to.
    Mr. Nieto. Thank you, sir.
    I guess as a matter of fact, we have in EPIC, 29 CBP 
personnel. We saw it as a place to really expand it. At the 
true fusion center, there is 17 different agencies there 
already. They already have the mechanisms in place. They have 
been there for over 35 years. Granted initially it was based on 
narcotics. We are looking at it as an all threats, all hazards 
again. So the mechanisms are in place. We are capitalizing on 
what is there already, to ensure that that information flow is 
back----
    Mr. McCaul. My time is running. I know what EPIC is all 
about. What I am asking is are we giving--sharing intelligence 
with the Mexican military to take out the drug cartels?
    Mr. Nieto. Yes. Yes, sir, we are. And----
    Mr. McCaul. And is that effective?
    Mr. Nieto. Yes. And what I can tell you, the relationship 
with CSEN, with the Mexican agencies, with the Mexican 
government, has never been better as it is now. And I would 
defer to Mr. Pena who I actually in Mexico to further.
    Mr. Pena. Congressman McCaul, thank you for the opportunity 
to answer that question. I would start off by saying that 
currently, based on the relationship that was established in 
2004 with CSEN when it was then headed through the current 
attorney general Medina Mora, CSEN agents were assigned to 
border enforcement security task forces in the United States.
    The first one was in Representative Cuellar's district. 
When the violence was escalated in Nuevo Laredo. So there are 
now 12 of these border enforcement task forces. And they are 
staffed by security, seguridad publica officers. That is the 
federal police. They are in the U.S., embedded with federal, 
state and local officers from the U.S. And that is an important 
exchange of intelligence, very timely and also many times 
operationally and tactical.
    The Office of Intelligence--that the Department of Homeland 
Security has here and has the border security branch, has a 
direct relationship with CSEN, whether it is in an interchange 
of intelligence and information, almost on a daily basis.
    The mission in Mexico City, the embassy, our U.S. 
intelligence agency works directly with-and some of the things 
I can't speak about, classified exchange of information in 
Mexico.
    CSEN recently visited the ACTIC, which is the Arizona 
Counterterrorism Center, looking to see, to build a fusion cell 
in Mexico similar to what exists in Arizona. And they were 
funded by the Department of Homeland Security. I forgot how 
many right not there are throughout the United States. So they 
could better see how we exchange information within our 
agencies here domestically, and then also internationally.
    Mr. McCaul. That is encouraging. Thank you, Madam Chair.
    Ms. Sanchez. Gentleman from Laredo, Mr. Cuellar, for 5 
minutes.
    Mr. Cuellar. Thank you, Madam Chair.
    To the members of the panel, I thank you. I appreciate the 
work you do in law enforcement. You know, I have got three 
brothers that are peace officers. In fact, one of them is a 
border sheriff. So I do understand and appreciate the work that 
you do.
    We are dealing with an issue that, on the border--as you 
know, I am from the border. And the border is very important to 
me. I have a vested interest. My family is there. I grew up 
there on the border.
    We have a 2,000-mile border with Mexico. And every day we 
trade legitimate business, about $1 billion a day of trade. You 
know, you include trade, tourism, retail. It is a very 
important partner that we have.
    But we have this issue with drugs. And it is not a new 
phenomenon. In fact, if you looked at history, we have had 
large infusions of drugs coming in from Mexico from 1917 to 
1933. We had it even during the Civil War. We had it during 
World War I, World War II. There are areas with times in our 
history that it has come in.
    But now, we have a different type of situation, because the 
border violence or the violence has now popped up. In fact, you 
know, when people say well, that is a border issue, it is not. 
If you look at the drug presence that the drug cartels have, 
there are about 230 cities. Name the state that you are from, 
and you will see the cities in your particular states where the 
drug cartels have a presence in.
    Everybody has a plan. In fact, the admiral I asked a while 
ago, you know, our governor has a plan. You know, yes, sir he 
was with us with the Texas delegation. I had asked you if you 
had seen it. You have said no. And this is one of the things 
that I want to emphasize to all the members of the panel is 
what are we doing to coordinate our efforts?
    For example, can somebody--this is open to anybody. How 
many cities do we have? How many city departments, police 
departments, do we have on the 2,000-mile border? Anybody know? 
How many sheriff's departments do we have on the 2,000-mile 
border? Anybody know? How many states? That should be a lot 
easier. And the governors have their own plans also.
    And then if you go even on the federal level, you have FBI, 
you have DEA, you have ICE, you have ATF, you have Custom 
Border Protection, you have border patrol. And there are 
different levels on that. And one of the things I have been 
talking about is how do we coordinate the effort?
    Mr. Leech, I heard you say, and it is very encouraging, 
that we are starting to coordinate. But I would ask you not 
only coordinate across the level with federal agencies, but 
also go up and down with the states and the local officials. I 
know there have been some efforts. And I appreciate the work 
that you are all doing.
    But we need to have a way to coordinate and communicate. 
You know, just even in our other subcommittee that we have, 
communications. You know, police can communicate with other 
police. But they can't communicate with the state or the 
federal or local. And even on that part of it is something that 
I would ask you and encourage you to emphasize and focus on 
that.
    And I know there is--I know you have got both. Somebody 
mentioned you have someone in Austin. You have got somebody. 
But is there a coordinated effort to say if there is an 
incident, this is how we can bring everybody in?
    I know that the best program is probably a good model that 
we can implement, not only those cities that you have them, but 
across the border, across the 2,000-mile border, and even into 
the northern side also. But I think that is a good model, 
because you do bring in the state, the federal, the local and 
the Mexican side also into the process.
    So I would highly encourage you to follow that process 
across the board.
    Mr. Leech. That is an excellent point, Congressman. Let me 
say this about that. Several issues here. We just recently sent 
out about 150 letters to our state and local partners, 
Congress. We also sent some letters up to Congress to ask for 
your input and what we could do to be more effective on the 
border. And we got a lot of really good input from our state 
and local partners working with the--working with the fusion 
centers that you have mentioned.
    But here is a very important point. And I want to keep 
going back to that. And that is the strategy. The counter-drug 
strategy that we are developing addresses several various 
areas. We are looking at intel. We are looking at the ports, 
between the ports. We are looking at our air assets, our 
relationship with Mexico, money, prosecutions, investigations. 
And most recently, as a result of your input, southbound flow 
of arms.
    And the strategy is an effective strategy. It will work if 
executed. An important point to keep in mind is this is a very 
holistic approach to trying to solve this problem. And we have 
to understand what we are trying to do, what the U.S. 
government is trying to do.
    Admiral Rufe has the Southwest Border Violence Plan. That 
is a plan that is built on either escalating contingencies or 
explosive contingencies. Our office, the Office of 
Counternarcotics and Enforcement, we build a southwest border 
strategy plan. It is a methodical 5-year plan, updated every 2 
years. And it is a good plan. It is a damn good plan.
    Al works the Merida Initiative. These three plans together 
can secure our border. They have to be implemented. Oversight 
has to be provided. And we have to stay committed.
    But to get back to your issue of the state and local, this 
strategy, which is right here, this is just the basic strategy. 
It is roughly 35, 37 pages. When we put the implementation plan 
to it, here is 2007, it will grow to around 200. And this one 
is 237, 235 pages.
    Now, a question might be well, you have had this since 
2007. What has been going on? A lot of things are going on. And 
it is really not important at this point in time. What is 
important is we now have a Congress who is very serious about 
this. We have a secretary who is very serious about this. And 
we have a president who is very serious about this. If we 
execute these plans as planned, we will see results.
    Mr. Cuellar. Thank you, Madam Chair.
    Thank you.
    Ms. Sanchez. Thank you to the gentleman who has worked very 
hard on many of the border issues being from the border area.
    The next member will be Mr. Bilirakis from Florida for 5 
minutes.
    Mr. Bilirakis. Thank you, Madam Chairwoman. I appreciate it 
very much.
    Commissioner Nieto, Customs and Border Protection has 
reported that, since the beginning of fiscal year 2009, there 
have been 338 acts of violence against border patrol agents and 
123 acts of violence against Custom and Border Protection 
officers at the ports of entry.
    I am concerned with reports that CBPOs do not have 
sufficient resources and equipment to protect themselves 
against the increasing violence occurring in Mexico. And there 
may be similar issues among the border patrol agents.
    What resources do the CBPOs currently have, such as body 
armor, weapons, et cetera? What resource do the border patrol 
agents have? And has the department provided additional 
protective equipment to personnel on the border? And lastly, 
can the CBPOs obtain better body armor and more appropriate 
weapons to protect themselves and do their jobs more 
effectively than what is currently the standard issue to them?
    Mr. Nieto. Thank you, sir, for that question. The current 
armor that is provided to the agents has certain levels. It is 
a level 3--certain levels of protection for an agent. We are 
looking at up armor, armor that would provide more protection 
for them throughout the border.
    And I would like to go ahead and restate the numbers that 
you just mentioned on assaults. I think we are looking at, for 
the first quarter of fiscal year 2009, there was a total of 
327, 204 for agents, 123 for CBPOs. I think the number that you 
have of 338 for the agents----
    Mr. Bilirakis. Right.
    Mr. Nieto. --is up to the 28th of February. So we are 
looking at two different dates here.
    Mr. Bilirakis. Thank you.
    Mr. Nieto. Just to clarify.
    Mr. Bilirakis. No, thanks for updating us.
    Mr. Nieto. Yes, sir. And we are looking at applying more 
armor for them, giving them the ability to have that in order 
for officer safety. Officer safety is paramount for us right 
now, which is another reason why we don't do sustained outbound 
operations right now as the infrastructure is not there at the 
ports of entry. So mainly an officer's the only thing that may 
be between the perpetrator, the individual trying to go south 
with whatever they may have, and Mexico. And then they are a 
minute apart.
    So we try to keep our agents out of that peril to make sure 
that, you know, officer safety is our primary and paramount 
concern.
    Mr. Bilirakis. When do you anticipate them getting the 
upgraded body armor?
    Mr. Nieto. The upgraded--the up-armor, as we call it right 
now, is going through testing phases. It has been in the works. 
We have five different contractors that came to the table with 
certain versions of them. I would have to get back to you on a 
firm date as to when it is going to be actually available for 
purchase for our officers and agents in the field.
    Mr. Bilirakis. But this year?
    Mr. Nieto. I would imagine so, sir. But----
    Mr. Bilirakis. Okay. If you can get back to me, I would 
appreciate it.
    Mr. Nieto. I sure will.
    Mr. Bilirakis. Do you believe, Commissioner Nieto, that 
there is a disconnect between CBP leadership and CBPOs 
themselves about whether they have the training and resources 
to do their job safely and effectively? Is there a process by 
CBPOs and border patrol agents can share any concerns they may 
have about inadequate training or resources with their 
superiors or CBP leadership without fear of retribution, which 
is important?
    Mr. Nieto. Yes. Yes, they do, sir. Of course, there is 
chain of command. They have got supervisors. They have got 
people. They have got training officers at their locales, local 
areas. Plus, for example, border patrol has what they call a 
field coordination division or a field communication division. 
They provide a Web site to ask headquarters or ask the 
commissioner questions. They send those questions. That team of 
personnel do research, find the answers and send it back out 
and put it out for everybody in case someone else has that same 
question.
    So the flow of information is there. The concerns that they 
may have are heard and are addressed as they come in.
    Mr. Bilirakis. Thank you very much, Madam Chairwoman. I 
appreciate it very much.
    Mr. Nieto. Yes, sir.
    Ms. Sanchez. Thanks to the gentleman from Florida.
    We now have Mr. Green of Texas for 5 minutes.
    Mr. Green. Thank you, Madam Chair.
    I thank the witnesses for their testimony. And I can 
candidly say that I am encouraged. Much of what you have said 
has given me reason to believe that we are making progress. 
However, while I am encouraged, I must also consider the 
magnitude of the problem and realistically conclude that a bad 
problem has a potential to become a worse problem. That is what 
we are dealing with.
    And my concern for this emanates from the notion that drug 
trafficking and drug running, these are not American problems. 
They are not Mexican problems. They are transnational problems. 
And transnational problems of this magnitude require a 
comprehensive transnational solution.
    I appreciate what has been said about securing the border. 
I think that a fence can circumvent. I am not sure that it can 
prevent. And my concerns are as follows.
    One, will constructing the fence to specification--and I am 
convinced that many of you are aware of what I mean by 
specification. That is intended to be constructive. Will this 
prevent the violence that we see in Mexico? And will it prevent 
the violence from spreading to America? Will the fence do this? 
And I will allow you to elect which will speak first. But I do 
ask that you be as terse and laconic as possible.
    Mr. Leech. I would like to make a comment on that. Will the 
fence--probably to some degree. But again, I would like to make 
a point and make the point----
    Mr. Green. If your answer is no, let me make sure that I 
understand this first, because sometimes when people finish, 
candidly, I don't know if they have said yes or no. So is your 
answer no, that it will not prevent?
    Mr. Leech. Well, 100 percent? No, I don't believe so. 
Personally I do not believe that it will prevent.
    Mr. Green. Okay. Let us have Mr. Kibble.
    Mr. Kibble, will a fence prevent what we are trying to stop 
here, this violence in Mexico and the violence that may spread 
to the United States?
    Mr. Kibble. Sir, I would defer to Deputy Assistant 
Commissioner He really--
    Mr. Green. All right, you have been deferred to.
    Mr. Nieto. No, great question, sir. And thank you. The 
fencing is part of a comprehensive strategy. By itself, no.
    Mr. Green. Okay. If the fence won't prevent, let me ask my 
follow-up question, because time is of the essence. We have 
growth industries. We have drug growth and we have a growth in 
gun running. With these two growth industries, and 
understanding that a fence won't prevent it, have we had any 
recommendations made to us as to how we can prevent the growth, 
the proliferation of drug in this country, not just stopping at 
gun shows.?
    But how do we fashion law that will prevent the 
proliferation of the growth industry? Because every year we get 
more and more of our side of the growth industry to increase. 
The drug problem is one on Mexican side. And we have got the 
gun problem on our side. And the gun problem grows. It is not 
something that is in any way dissipating.
    So the question becomes do you have the laws that you need 
to impact the growth of guns in this country, which are really 
the manufacture and the allowance of them on the street.
    Mr. Nieto. Sir, I believe the laws are there. We are 
looking at beefing ourselves up for outbound inspections, as I 
mentioned earlier. The fencing, as I mentioned that it is not 
the silver bullet for this. But along with the technology, the 
right resources, that three-legged stool that we talk about, it 
does have an effect on interdiction of those coming into the 
United States.
    Mr. Green. Let me quickly ask the follow up, if I may. With 
reference to guns that are readily available in this country, 
is it your position that we have enough laws to curtail the 
readily availability of guns in this country? You don't have to 
go to a gun show to buy guns. They are everywhere.
    Do we have enough to circumvent the sale of guns in this 
country, such that they can cross the border?
    Yes, sir.
    Admiral Rufe. Mr. Green, yes. I will just give you a 
personal opinion. First of all, I think the fact that we allow 
assault weapons to be sold freely on the streets is--there is 
no recreational use for them. And I think the argument that it 
is a Second Amendment assault is, in my personal view, just 
doesn't pass the smell test.
    So I think we could tighten up our gun laws. That is a 
personal opinion from me.
    Mr. Green. I thank you for your courage. I thank you for 
your courage.
    Yes, sir.
    Mr. Pena. Congressman Green, I would just like to point out 
that this coming March 31 through April 3, the attorney general 
of Mexico will be hosting a binational firearms conference to 
come up with a comprehensive strategy between the United 
States--a binational strategy to deal with the highest level. 
He has invited the attorney general from the United States.
    Mr. Green. I appreciate that response. But I have to get 
you to focus now. Let us talk about guns on the streets of the 
United States of America that are making their way across the 
border into Mexico. That is what we need to focus on now. What 
about that?
    Mr. Leech. Sir, I could speak to the cross-border component 
of that, because we gained new authority----
    Mr. Green. I am talking about laws that allow this. Do we 
need to do more to circumvent. If you stop the growth of 
marijuana, you don't have to worry about it being sold. We have 
to approach guns the same way. Do we have the law to circumvent 
the sale of guns, so that we can stop this?
    These guns are everywhere. They are destroying communities. 
The drugs are a problem. But the guns are a problem too. And I 
have gone beyond my allotted time.
    I thank you, Madam Chair. And I yield back.
    Ms. Sanchez. You are welcome, Mr. Green.
    We will now hear from Ms. Lofgren of California for 5 
minutes.
    Ms. Lofgren. Thank you, Madam Chairwoman.
    I have been concerned about the flow of guns south for some 
time. I remember I met with the attorney general of Mexico and 
Mexico City almost 2 years ago. And this was the thing he 
wanted to talk about most. I remember him saying I understand 
you have got a second amendment. We, in Mexico, respect your 
Constitution. But surely you can do something about the machine 
guns and surface-to-air missiles and things that are coming 
down, and really just causing them tremendous problems.
    And I was pleased when the secretary was here 2 weeks ago. 
She indicated that she had requested an assessment of ICE and 
CBP's efforts to stem the flow of guns from the United States 
into Mexico. And I understand that assessment was due to her on 
February 20. Can you tell us what the findings--anyone who 
knows--what the findings of the assessment were, and then what 
the implementation plan is?
    Mr. Nieto. Thank you, ma'am, for that question. I know that 
we have a comprehensive strategy for outbounds. However, in 
order to sustain, as I said earlier, it is going to take 
infrastructure----
    Ms. Lofgren. I know. But the question is, this was a new 
assessment she asked for.
    Mr. Nieto. Correct.
    Ms. Lofgren. Do you know what was in that assessment? If 
you don't, you could just say you don't know.
    Mr. Nieto. From our portion, that was the assessment that 
we gave.
    Ms. Lofgren. Okay. So no one has the--well, then we can 
follow up with the secretary on the comprehensive assessment. 
Let me ask you this. ICE has a very important role in 
stemming--actually the primary role in stemming the flow of 
guns south. And you mentioned, Mr. Kibble, that there are 
several hundred personnel, ICE personnel, assigned to this 
task.
    What is the number of ICE personnel total?
    Mr. Kibble. Ma'am, as far as special criminal----
    Ms. Lofgren. No, all the ICE personnel. How many are in the 
agency?
    Mr. Kibble. Roughly 20,000.
    Ms. Lofgren. So we have got 20,000 employees and a couple 
hundred assigned to guns going south.
    Mr. Kibble. I would only clarify, ma'am, that within the 
Office of Investigations, which is the component of ICE that is 
charged with this, we have a smaller number. It is roughly 
6,500 investigators that are addressing the full spectrum of 
cross-border crime.
    Ms. Lofgren. Okay. So that is a pretty small percentage of 
the total, in my judgment. You don't have to agree.
    Mr. Kibble. May I add one more thing, ma'am?
    Ms. Lofgren. Of course.
    Mr. Kibble. Just to add some context, again these networks 
are not necessarily just dedicated weapons smuggling networks. 
So it is through the border enforcement security task forces 
and other mechanisms, we are addressing all facets of these 
organizations that are moving, not only guns, but money south 
and also drugs north. So there really is a comprehensive push 
on trying to deal with that full threat spectrum presenting us 
across the border. And that extends to the thousand-plus agents 
along the southwest border.
    Ms. Lofgren. So we have an additional maybe 1,000 agents 
who are also doing task force work on this. Now, do you have 
dedicated agents working on the flow of--the other thing the 
Mexican attorney general brought to my attention, and the 
Mexican legislate--who I have met with. I meet with them, you 
know, every three or 4 months. And although they politically 
still have a broad spectrum, they are united that they have got 
to get on top of this, which is very encouraging.
    The other thing they want us to do is a much better job of 
following the money, which is all being laundered here in the 
United States. How many agents do you have assigned to 
following up on that aspect of this?
    Mr. Kibble. Ma'am, I don't have a specific number available 
to me. But I can tell you a substantial--we look for the 
financial component of every cross-border----
    Ms. Lofgren. Could you follow up and tell me the number 
later? Because it occurs to me that the government of Mexico 
has taken on a tremendous task. And we are involved with them, 
because we are consuming, for the most part, the drugs that are 
the business of these cartels. The violence that is underway in 
Mexico now has the potential--I am not saying that it is going 
to succeed. But if the Mexicans do not succeed, has the 
potential of completely destabilizing that country, right on 
our southern border.
    Can you imagine the refugee crisis that would create for 
the United States and other countries in the Western 
Hemisphere, in addition to just the nightmare scenario that 
that provides for our closest neighbor other than Canada? So I 
think we have a very substantial obligation to support the 
efforts of the Mexican government to get control of this.
    They are losing people in this war. They have lost more 
people than even we have in Iraq and Afghanistan. And the two 
things that they have asked us to do, which is to stop the 
weapons, we haven't done; and to follow the money and shut it 
down, which we also haven't done.
    And I am not criticizing your efforts. I know you work 
hard, you know. But it is a matter of priorities. The 
government lacks priorities. Where are we going to put our 
resources for one of the most important challenges that we face 
as a nation. And I will just give you my point of view, and we 
will follow up with the secretary, that our priorities are 
mistaken here.
    The biggest threat we face here is the collapse of civil 
order in the nation to the south. And it is our obligation to 
do everything we can to support them to get control of this 
situation.
    And I yield back to the gentle lady. I have gone slightly 
over my time.
    Ms. Sanchez. They are good questions to my colleague from 
California.
    The next one up will be Ms. Kilpatrick for 5 minutes.
    Ms. Kilpatrick. Thank you, Congresswoman. And Chairman 
Sanchez, I appreciate very much our distinguished panel today, 
and especially your written testimony. There is so much good 
information in it, that I am going to re-reading it tomorrow on 
my long flight back to Arizona.
    I am especially concerned about border security, because I 
represent a vast sprawling district in Arizona; many, many 
small towns. And I am recently hearing that there is an 
increase in heroin trafficking in some small places, even 
overtaking methamphetamines. So securing the border is a huge 
issue for my district.
    Yesterday, President Obama weighed in. And he said we are 
going to examine whether and if National Guard deployment would 
make sense, and under what circumstances they would make sense. 
And as a former prosecutor working with law enforcement, I 
quickly learned that there is a delicate balance in responding 
to violence between stabilizing the situation, stopping the 
violence, but not overreacting in such a way that it actually 
escalates.
    And so my question is for the admiral, what checks and 
balances are in place in the phases you described to make sure 
that our response is appropriate. And then my second question 
deals with the National Guard specifically. We have asked a lot 
of our National Guard in the past few years. And I want to know 
if there is an evaluation in place right now to make sure that 
we have the National Guard units that we need to respond, and 
that they have the resources.
    I would like to see an ongoing evaluation to make sure that 
they have exactly what they need if we are going to be calling 
on them for this very important response. Thank you, Admiral.
    Admiral Rufe. Okay, thank you, Congresswoman. I appreciate 
the question.
    First of all, on the checks and balances within the plan 
itself, yes we do. It is a measured plan that is meant to ramp 
up as the threat ramps up. And there are triggers within that 
to alert leadership as to when the violence or other threat has 
reached a level where the forces in place can't address it, and 
then bring any additional forces as needed to address it.
    And of course, as I mentioned earlier, the most extreme 
measure would be calling upon significant DOD support, which we 
don't foresee at the present time, but nevertheless is there if 
we need to call on it.
    The secretary has met recently with the secretary of 
defense and will meet again with him. We have actively engaged 
within our planning process both the National Guard, the 
Department of Defense and NORCOM, Northern Command out of 
Colorado Springs, actively involved in all the planning 
process, so that we know fully what capabilities would be 
needed, and how we could access those capability if they were 
needed.
    With respect to the National Guard specifically, there here 
are various ways obviously of activating the National Guard. As 
you know, the governor can call upon his own National Guard 
without further reference to anybody, us included. So that 
certainly is an option the governor can call on at any time.
    But in terms of using the National Guard on a sustained 
basis, we are not contemplating that at the present time. But 
that is certainly an option if the situation demands it.
    Ms. Kilpatrick. Thank you, Admiral. Do you know if there is 
an evaluation in place to determine whether the National Guard 
has the resources they need?
    Admiral Rufe. Yes, that is a--you know, as you point out, 
the National Guard has been stretched with all the activity 
overseas and Iraq and Afghanistan. And I know within the 
National Guard itself, yes, they are constantly evaluating. And 
I think, through the Department of Defense channels, putting in 
appropriate resource request to restore the National Guard 
where it is necessary.
    Ms. Kilpatrick. Thank you.
    I have another question, and that is for Mr. Pena. I know 
that from your years in Phoenix, you appreciate the Native 
American component of Arizona and the tribes along the border. 
And we actually have tribes that span the border into Mexico--
one tribe in two countries.
    And I am just wondering what kind of outreach Mexico is 
using to just tie those two communities together in terms of 
securing the border and responding to the violence that is 
unified across tribal land, but actually spans two countries.
    Mr. Pena. Congresswoman, I really don't have the specific 
answer for that. But I can just tell you that Mexico certainly, 
just like the U.S. and in Arizona, has a tremendous amount of 
respect for the Native American in their country. They describe 
many times as the indigenous tribes that exist there, 
especially along their southern frontier. And I don't really 
have an answer for that.
    But I can tell you that DHS, through its program with the 
Shadow Wolves that you may be familiar with is the Native 
American from the--that are assigned to ICE investigations and 
patrol the trafficking routes along the Arizona-Sonora border--
very, very involved in that activity with the Native Americans.
    But specifically I don't have the answer to your question. 
I am sorry.
    Ms. Kilpatrick. And I certainly didn't mean to put you on 
the spot. But at some point, maybe we can visit a little bit in 
more detail. I have been meeting with those tribes about the 
challenges that they are experiencing crossing the border for 
ceremonial purposes. So we can follow up again.
    And again, thank you very much. And I yield back my time.
    Ms. Sanchez. I thank the gentle lady and I will next 
recognize Mr. Pascrell, of New Jersey, for 5 minutes.
    Mr. Pascrell. Thank you.
    You know, just because these people don't have Middle 
Eastern names, Madam Chair, and the violence isn't happening 
halfway across the world doesn't mean that this isn't 
terrorism. What we are witnessing in Mexico is the worst kind 
of domestic terrorism. And it is happening right on our border. 
So if anyone thinks that this shouldn't be a homeland security 
priority, then they just haven't been paying attention.
    Now, the chairman and I went to Mexico, not that long ago, 
went into the belly of the beast. That will do for now. And we 
found that the top echelon in the Mexican police who handle 
drug interdiction had to take polygraph tests, because there 
was so much corruption going on.
    This is a very serious, serious, serious problem. At that 
time, we were told that the only real interdiction that was 
going on were the UAVs that we had had or some planes, two 
planes, two drones, that were assisting the Mexican police and 
officials from our DEA in tracking down those who are involved 
in the trade of death. Let us not romanticize this.
    I want to know--first question to you, Mr. Leech is are 
those planes still in operation?
    Mr. Leech. Admiral, I think those UAVs are CBP-owned. Are 
they not?
    Admiral Rufe. More appropriate for CBP to answer that.
    Mr. Nieto. I think what you are referring to, sir, is 
Operation Helicon.
    Mr. Pascrell. That is correct.
    Mr. Nieto. Okay. Both governments, U.S. and government of 
Mexico are currently in negotiations to get that thing started 
again, sir.
    Mr. Pascrell. I want you to listen to this, Madam 
Chairwoman, because the last administration--and this was a 
very successful operation, very successful--decided that we did 
not have enough money to fund the most effective way of 
tracking down these drug dealers and their menace. And we still 
do not have an operation. And that, I would venture to say, is 
at least 20 months we have not had that operation now.
    So Mr. Leech, I have a long been talking about the 
escalating violence. A lot of us have talked about drugs and 
guns. We don't really, really want to stop the guns from going 
into Mexico. Do we?
    We would be naive and certainly in denial to act as if this 
is a problem that has just emerged from our neighbor Mexico and 
has nothing to do with us or our own policy and our own 
enforcement decisions. Plain and simple fact is that most of 
the drugs coming from Mexico are destined for our country, as 
many of you pointed out. And the most dangerous weapons fueling 
the violence come from the United States.
    So the first step to fixing something is recognizing the 
problem. The previous administration seemed intent on ignoring 
the connections between drug trafficking organizations and the 
increasing levels of violence in Mexico, especially right at 
our southern border.
    So Mr. Leech, let me ask you, is this administration ready 
to recognize the problem for what it is, a threat caused by a 
failed drug and weapons smuggling policy that allowed cartels 
to flourish just south of our border? I would like to get an 
answer to that question. Would you put your microphone on 
please? Thank you.
    Mr. Leech. DHS is keenly aware of the connection between 
border violence and drug trafficking organizations. And I think 
there may be an--Congressman Lofgren posed sort of the same 
sort of question about arms and money, weapons and money. And 
this is what the DTOs need to continue doing what they are 
doing. We have to attack arms and money.
    And I think the impression may have been given that the 
administration and DHS is not addressing that issue. Well, I 
can sure assure you all that it is being addressed. And you 
will be privy to it at the end of April. We are working 
jointly. ICE and ATF currently are working together on 
developing an arms chapter for this strategy that will address 
the southbound flow of arms. This strategy right here, which 
you already have access to, was provided to you earlier this 
year or late last year, has a chapter on prosecutions, money 
and investigations, which address the whole money issue.
    Our office recently completed a bulk-cash currency study, 
which I will be more than happy to share with you at some point 
in time. So we are not neglecting the two key components that 
keep these DTOs alive. And that is weapons and money. We 
recognize that as a problem. The interagency is working hard to 
address the issue. And we will keep moving forward with greater 
and greater measures until that issue is solved. Thank you.
    Mr. Pascrell. Madam Chair, can I ask one more question. Or 
I will go for the second round, whatever you choose.
    Ms. Sanchez. Mr. Pascrell, I don't believe we are going to 
have a second round. So I will let you ask your last question.
    Mr. Pascrell. Thank you. Thank you very much. Oh, this is 
my last question?
    Ms. Sanchez. Your last question, Mr. Pascrell.
    Mr. Pascrell. All right.
    Ms. Sanchez. And any other questions you might have, you 
can always submit for the record.
    Mr. Pascrell. Thank you.
    Ms. Sanchez. In writing.
    Mr. Pascrell. Here is my question.
    Mr. Leech----
    Ms. Sanchez. And no two-pronged questions, okay?
    Mr. Pascrell. Oh, I never ask two-pronged questions, Ms. 
Chair.
    Mr. Leech, this is in my bone marrow, I want you to know, 
this issue. And I mean business. And I know you do, too. I am 
not a proponent of legalization of drugs. But let me ask this 
question.
    I have listened to a lot of people in that seat over the 
last 4 years, 5 years. And they said similar things. And they 
help up similar reports and strategies. I like the word 
strategy. Every problem has got a strategy in Washington.
    But I want to ask you a real straight question. And I hope 
you give me a straight answer. Do you think that the 
legalization of the drugs we are talking about today, 
particularly cocaine or marijuana--do you think that helps us 
in the war or in the fight against--in our attempts to stop 
drugs? Or do you think that it would make matters worse? Or do 
you think it wouldn't make a difference?
    Mr. Leech. I don't think it would make a difference.
    Mr. Pascrell. You don't think it would.
    Mr. Leech. No, sir, I don't.
    Mr. Pascrell. Well that is interesting. And we have come a 
long way in 10 years.
    Mr. Leech. That is a personal opinion.
    Mr. Pascrell. Yes.
    Mr. Leech. It doesn't represent the administration or the 
department.
    Mr. Pascrell. I understand that. I didn't ask you to----
    Mr. Leech. I don't think it would make a difference.
    Mr. Pascrell. I didn't ask you to catch. I asked you for 
your honest opinion. Of course, I am beginning to think that 
what we have done so far isn't working. And good intentions 
have been in front of us engining the strategies that we come 
up with.
    This is a dreadful thing that has happened. The Mexican 
people deserve better. Mexican-Americans deserve better. And 
Americans deserve--the rest of the Americans deserve better. 
And I just am not comfortable with what I am hearing from this 
administration. And I have a tremendous amount of confidence in 
Secretary Napolitano. I really do. And if I didn't, I wouldn't 
say that.
    But I don't see an appreciable change. I see spurts of 
arrests. We had that from our own attorney generals in our own 
states. And yet the drug problem gets worse in our own states. 
Just a thought.
    Mr. Leech. Sir, let me say this though about that issue. I 
do believe that the issue becomes irrelevant if--and you 
mentioned a second ago, you have seen a lot of people hold up 
documents. And I will hold it up again.
    If we can execute and are serious about executing the 
strategies and implementation of plans that we are developing 
right now, and that is the Merida, the Southwest Border 
Strategy and what Admiral Rufe is working on. We now have an 
alignment of Congress, the president, the secretary that I 
think it would be a very, very effective execution of these 
strategies.
    I have been in the drug business for a long time. I spent 
28 years as an Air Force officer. I worked drug issues very, 
very early as a young captain. And I have stayed with it most 
of my careers in between flying assignments. I have been with 
this particular office, counternarcotics, for the last 5 years. 
I think this Congress has always been serious about the issue. 
But other factors have to line up in order to make it happen.
    I think everything is lined up right now. Certainly my 
visit along with Al Pena down in Mexico, I know they are eager 
to be a part of this, to team up with us to try to stop this 
terrible thing that is going on in terms of drug and violence. 
I know all the interagencies players right now are working 
together at a level that I haven't seen since post-9/11, that 
short period after 9/11 where we all just came together.
    I can see that beginning to happen now within the 
interagency. And I can certainly see, just by this hearing, 
that Congress is serious about this. Secretary Napolitano is a 
boarded governor. She understands the issue. And I think now is 
the time that we can make things happen if we collectively work 
as a team to move this whole effort forward. Thank you.
    Mr. Pascrell. Thank you.
    Madam Chair.
    Ms. Sanchez. Mr. Pascrell, you have even exceeded the time 
I had.
    Mr. Pascrell. I am going to ask you a question.
    Ms. Sanchez. Go ahead.
    Mr. Pascrell. Madam Chair, it has been alluded to by a few 
folks. I would like to know for the committee, and maybe you 
could, through your authority and influence, find out how the 
cartels are exploiting U.S. laws in the purchase of weapons to 
be used in Mexico. Would you find that out for us?
    Ms. Sanchez. In fact, that was one of the questions I was 
going to ask in parting from this group, what do they need from 
us to be revised in order for this Department of Homeland and 
other agency to carry out what we need. Before I ask that 
question, however, I am going to give my ranking member the 
opportunity to ask one question.
    Mr. Souder. I wanted to make sure for the record, my good 
friend Mr. Pascrell asked a question in a different form. And I 
think your interpretation and some people's interpretation may 
be slightly different from it.
    The way the question on legalization usually works is if we 
legalize it, then we will be able to reduce law enforcement, 
because--but what the answer was is it wouldn't make any 
difference. The cartels would just switch to other things. It 
would have no impact on law enforcement. It would have a 
terrible impact on individuals, because we would see an 
increase in the use of marijuana, an increase in the use of 
cocaine. And you would see treatment programs and other things.
    But you ask a law enforcement question, not a drug. Every 
country that has backed off on law enforcement has seen an 
increase in usage and--
    Mr. Souder. Yes, yes. And I realize that. But this issue is 
The Economist Magazine just came out, lots of others, saying 
oh, we wouldn't have to do all this law enforcement if we 
legalized. And I don't think that is the case.
    I just wanted to--do you agree with that, Mr. Leech?
    Mr. Leech. Yes, sir, I do. Thank you, Congressman.
    Ms. Sanchez. Obviously not from California. Well, of 
course, our electorate has voted various times with respect to 
loosening the laws on marijuana. I do have a question on the 
last question, which would be, legislatively, what changes 
could you use to make your job, make the people who are working 
with you, more effective in curtailing money and guns going 
south, people and trafficking and drugs going north and the 
violence.
    Are there any pieces of legislation, any pieces of laws, 
any tweaking that needs to happen in order for you to have the 
authority to do a better job of getting a handle on this 
violence at the border?
    Admiral Rufe. Madam Chairman. I will answer for the panel--
    Ms. Sanchez. Yes, Admiral.
    Admiral Rufe. If anybody else wants to chime in, I would 
say as well. That is a big and very important question. But it 
is one that we need to answer for the record. So I would ask 
your indulgence so we can get back to you with specific 
comments.
    Ms. Sanchez. Absolutely, we need to know. We need to know. 
And whatever you think that you need, so that we can talk about 
what we can get done out of this committee, because this 
committee has the primary jurisdiction of security at the 
border.
    Anybody else want to add anything? Or you all want to think 
about it and come back in writing to the record.
    Mr. Leech. Congresswoman, I would like to raise one issue. 
And that is the issue of Title 21 for ICE. I think you may be 
familiar with that. It has been an ongoing issue for some time 
now. There are a lot of reasons that the other agency is 
reluctant to see to it that ICE has Title 20, some of them very 
legitimate. Some may not be so legitimate.
    But the point is we are facing something we have never 
faced before at a level we have never seen before--the level of 
drugs and violence and arms. I, for the life of me, cannot 
understand--and I am a very simple guy. I spent many, many 
years in the military. And I am just trying to serve my 
commander in chief now. But I, for the life of me, cannot 
understand why my colleagues at ICE do not have Title 21 
authority, which is the authority to investigate drugs.
    They have very limited authority at this point. I think 
that issue needs to be looked at at your level. I ask that you 
look at it at your level. Thank you.
    Ms. Sanchez. Thank you, Mr. Leech.
    I thank all of the gentlemen, all the witnesses before us. 
Thank you for your testimony. And as you know, those members 
who still have questions, those who were not here might have 
some questions in writing to submit for the record. We will get 
them to you. We hope that you will turn them around as quickly 
as possible as----
    I am sorry, Mr. Nieto are you indicating something to me?
    Mr. Nieto. Ma'am, if I can have a couple of minutes just to 
clarify a couple of things.
    Ms. Sanchez. Okay.
    Mr. Nieto. Whenever I may.
    Ms. Sanchez. Why don't you do it now, because I am about to 
close the hearing.
    Mr. Nieto. Okay. Okay. When I mentioned about outbound 
operations and the sustainability of it, when I said we have 
the personnel to adequately address the threat right now with 
spillover violence, should it come, I just want to clarify that 
we are not saying that we have all the people we need, okay, 
for that, because there are other issues. And I did mention 
that for outbound sustained operations, it is going to take 
more infrastructure, more equipment and more personnel 
obviously.
    Ms. Sanchez. So by that answer, I am assuming you are 
saying if something happens, you are able to react to it. But 
in the long term, we need to assess what resources need to do 
if it is going to be a sustained battle.
    Mr. Nieto. And we have a plan for that. So we have 19,000 
officers, gun-carrying officers at the borders. So if spillover 
occurs, we will be the first ones to know. And we do have 
organic resources and the Southwest Border Violence Plan to 
mitigate it at that point. I just wanted to make sure that that 
is--because we have other issues that I didn't want it to come 
out as we have all the people we need.
    Ms. Sanchez. Okay.
    Mr. Nieto. I mean, especially not now.
    Ms. Sanchez. And then you had a second point you wanted to 
make?
    Mr. Nieto. Yes. And the question that Congressman Pascrell 
asked regarding the--it is manned aircraft that was Helicon. It 
wasn't UAVs, sir. Just with the Helicon.
    Ms. Sanchez. Okay.
    Mr. Pascrell. Can I respond to that?
    Ms. Sanchez. Let me have Mr. Souder. He had a response to 
the first piece.
    Mr. Souder. Thank you.
    Ms. Sanchez. And then we will get back to you, Mr. 
Pascrell.
    Mr. Souder. If I can say, Mr. Pascrell, maybe we ought to 
do, in classified, what you are asking.
    Mr. Pascrell. Okay.
    Ms. Sanchez. Exactly. I believe that is where it belongs, 
to my colleague.
    Mr. Pascrell. For a good reason.
    Mr. Souder. And I am concerned about your comment on 
personnel. Are you saying--because that is a change in earlier. 
In other words, if we want more IBET teams, if we change our 
strategy to do more outbound, if we say there are new tasks for 
homeland security, you are not maintaining you have enough 
people to do that.
    Mr. Nieto. Correct. For sustained outbound inspections, we 
do not have the proper amount of personnel right now.
    Mr. Souder. Or if we add more teams. There were more BEST.
    Mr. Nieto. Correct.
    Ms. Sanchez. And Mr. Pascrell, I think your questions are 
probably better handled in a classified briefing of some type. 
And we will try to set that up.
    Okay. Again, thank you to the witnesses for your valuable 
testimony. Members and subcommittee members who were not here 
will submit to the record some questions for the witnesses. 
Please respond to them as quickly as you can. And hearing no 
further business, this subcommittee stands adjourned.
    [Whereupon, at 12:10 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


                   Additional Questions and Responses

Questions from the Honorable Bennie G, Thompson, Chairman, Committee on 
                           Homeland Security

                       Responses from John Leech

    Question 1.: Studies indicate that nearly 90% of the cocaine 
available in the U.S. crosses the southwest border. As we cut off 
routes through Mexico and Central America, I am concerned that we may 
begin to see new routes emerge or old routes put back into use. As 
Chairman, I have consistently called for a comprehensive border 
security strategy that would address threats at all our borders--
northern, southern, and maritime. How will the Southwest Border 
Counternarcotics Strategy fit into a comprehensive border security 
strategy to help address all threats at all our borders?
    Answer: The National Southwest Border Counternarcotics Strategy is 
one piece of a broader and comprehensive border security strategy. 
While successful counternarcotics efforts along the southwest border 
may drive traffickers to alternate smuggling corridors, other 
strategies are in place to guide counternarcotics and border security 
activities in other regions. While we cannot prevent the smuggling 
organizations from adapting to the tightened border, these contingency 
plans will allow our law enforcement officers to identify and shut down 
the ever-changing trafficking routes.
    In 2008, the Office of Counternarcotics Enforcement (CNE) submitted 
to Congress the Department's counternarcotics strategies for the 
northern and maritime borders of the United States, to include the drug 
transit zone. These strategies help integrate and synchronize the 
Department's overall ability to respond to changes in drug trafficking 
routes.
    In 2009, CNE has been co-chairing an interagency effort to update 
the 2007 National Southwest Border Counternarcotics Strategy. The 2009 
edition, which will update the challenges specific to countering 
illicit drugs and related threats along the southwest border, will 
include new sections that address weapons smuggling and the use of 
tunnels to circumvent law enforcement. It will also identify priority 
actions to address cross-border smuggling threats and describe each 
agency's role along the southwest border.
    Reducing the flow of illegal drugs into the U.S. is best achieved 
through a layered, defense-in-depth approach of deterrence, denial, and 
interdiction and investigation. By using the appropriate mix of 
personnel, technology, infrastructure, and response platforms to 
achieve maximum tactical and strategic advantage, and through 
appropriate coordination with other departments, the Department of 
Homeland Security will be better postured to respond to shifting 
threats along our borders. Put simply, the Department is committed to 
bringing all of its available resources to bear when combating threats 
on our borders.

    Question 2.: Over the years, we have spent hundreds of millions of 
dollars on the ``war on drugs''. With this war now right in our own 
backyard, it is essential that funding provided to Mexico under the 
Merida Initiative be used effectively. How long do you believe it will 
be before we can expect to see indicators that the Merida Initiative is 
achieving its intended purpose? What can be done to speed up this 
process? What are your performance measures for the Merida Initiative? 
How will we know whether it is a success?
    Answer: The Department of Homeland Security (DHS) is closely 
collaborating with the U.S. lead agency--the Department of State--to 
ensure that Merida Initiative programs are effectively implemented in a 
calculated sequence to maximize support to Mexico's efforts against 
organized crime and improve Mexico's law enforcement and judicial 
capabilities. Also, over the past year, the State Department has led an 
interagency effort with the Government of Mexico on developing an array 
of measures and indicators of effectiveness. DHS defers to State 
Department on the progress of finalizing those measures.
    Currently, Merida Initiative funding will provide our Mexican 
counterparts approximately $700 million in equipment and training to 
support President Calderon's campaign against drug trafficking 
organizations and organized crime in Mexico. Even as the assistance has 
started to flow, Mexico has already made advances in cracking down on 
drug trafficking organizations, including most recently capturing a key 
leader, Vicente Carrillo Leyva, aka ``El Ingeniero'' (``The 
Engineer''), of the Juarez Cartel.
    The Merida Initiative complements U.S. efforts to execute a 
defense-in-depth approach to safeguarding the southwest border (SWB) 
and the Department is taking additional steps to improve security along 
the SWB. On March 24, 2009, Secretary Napolitano announced that DHS 
will:
        <bullet> Double Border Enforcement Security Task Force teams 
        that incorporate foreign, federal, state, and local law 
        enforcement and intelligence officers;
        <bullet> Triple the number of DHS intelligence analysts working 
        along the U.S. SWB;
        <bullet> Increase U.S. Immigration and Customs Enforcement 
        attache staff in Mexico in support of Mexican law enforcement 
        efforts;
        <bullet> Double Violent Criminal Alien teams located in SWB 
        Field Offices;
        <bullet> Quadruple the number of Border Liaison Officers 
        working with Mexican law enforcement entities;
        <bullet> Bolster Secure Communities Biometric Identification 
        capabilities;
        <bullet> Implement 100% southbound rail examinations;
        <bullet> Enhance the use of technology at ports of entry, 
        including use of mobile x-ray systems;
        <bullet> Increase the number of CBP Weapons/Currency canine 
        units operating on the SWB;
        <bullet> Increase engagement with State and local SWB law 
        enforcement;
        <bullet> Make available up to $59 million in current Operation 
        Stonegarden funding to enhance state, local, and tribal law 
        enforcement operations and assets along the SWB;
        <bullet> Increase the use of mobile license plate readers for 
        southbound traffic on the SWB;* Continue Armas Cruzadas--a DHS-
        led bilateral law enforcement and intelligence-sharing 
        operation to thwart export of arms from the United States into 
        Mexico; and
        <bullet> Continue Operation Firewall--a DHS-led comprehensive 
        law enforcement operation targeting criminal organizations 
        involved in the smuggling of large quantities of U.S. currency.
    These actions, along with Merida Initiative programs, will provide 
critical additional capabilities needed to apprehend dangerous cartel 
leaders, disrupt their operations, improve border security measures, 
and reduce the cross-border smuggling of illicit drugs, bulk cash, and 
weapons. We defer to the Department of State with regard to performance 
measures directly related to Merida Initiative programs.

                       Responses from Alonzo Pena

    Question 3.: Under the Merida Initiative, DHS and its components 
would provide a significant amount of assets and technical expertise to 
Mexican law enforcement. It is my understanding that much of this 
training will be done by CBP and ICE personnel located in Mexico. I am 
concerned, however, that we may not have the necessary resources abroad 
to combat the growing surge in violence or to implement the Merida 
Initiative.
    Question: How would the Merida Initiative impact DHS personnel and 
resources in Mexico?
    Answer: Merida is a Department of State led initiative and has no 
direct impact on DHS personnel and resources in Mexico. Merida is 
funded primarily from State Department appropriations for use in Mexico 
and other partner nations in the Caribbean and Central America. Merida 
funding is allocated to partner nations for equipment, training and 
information technology infrastructure. Merida funding is not used to 
augment United States law enforcement agencies. However, increased 
resources for Mexican law enforcement may benefit other initiatives 
involving cooperation between DHS and Mexico, such as the Border 
Violence Intelligence Cell (BVIC), the Border Enforcement Security 
Taskforces (BESTs), Armadas Cruzadas and Global Trafficking in Persons.

    Question: Has DHS provided any additional resources for your 
operations in Mexico to implement Merida and to combat the surge in 
violence?
    Answer: As Merida has no direct impact on DHS personnel and 
resources, DHS has not been provided with additional resources to 
implement Merida. However, we are working with the Department of State 
in implementing several Merida projects, including providing a detailee 
to assist in the procurement of advanced inspection equipment, 
providing technical assistance for several other projects.

       Respsonses from Vice Admiral Roger T. Rufe Jr. (USCG Ret)

    Question 4.: On March 24, 2009, Secretary Napolitano announced a 
strong initiative to address potential spillover violence along our 
border and the need to conduct more outbound inspections for arms and 
bulk cash smuggling.
    How does the recently announced initiative fit within the surge 
plan that you described at the hearing? Under what specific 
circumstances would the plan call for National Guard to be sent to the 
border?
    Answer: The initiatives announced by Secretary Napolitano on March 
24, 2009 are only one part of our revised SWB Operations Plan (OPLAN) 
which will be finalized as soon as possible. The OPLAN elaborates on 
coordination and execution of the initiatives between DHS components. 
This portion of the OPLAN reflects the newly strengthened DHS steady-
state operations. Additionally, the OPLAN addresses DHS coordination of 
activities if SWB conditions were to exceed the capabilities of DHS 
assets. Should DHS assets require augmentation, other Federal 
Departments and Agencies would be called upon to add support to the 
existing effort. Finally, the SWB OPLAN provides guidance on the 
transition to long-term recovery following the escalated Federal 
response.

    Under what specific circumstances would the plan call for National 
Guard to be sent to the border?
    Answer: The President has publicly made it clear that the current 
situation does not require the militarization of the border. He has 
also made it clear that he and the federal, state, and local agencies 
responsible for border security will continue to monitor the situation 
at the border carefully and will take additional steps if necessary to 
ensure the border remains secure. This has benefits for communities on 
both sides of the border. The $250 million in contingent DOD funding is 
a prudent measure to ensure that adequate resources are available, on 
short notice, if circumstances require ramping up efforts to augment 
civilian law enforcement activities along the southwest border. The 
funds could be used to augment existing DOD counter narcotics missions 
and to supplement civilian law enforcement efforts along the border if 
the President determines that such steps are warranted by the facts on 
the ground.

                      Responses from Kumar Kibble

    Question: It is my understanding that under some outdated MOUs, DHS 
can only investigate narcotics smuggling with the concurrence of the 
Department of Justice's Drug Enforcement Administration, despite the 
fact that DHS accounts for the largest amount of narcotics seizures in 
the war on drugs along our borders. Do you believe DHS should play a 
greater role in these narcotics investigations? What authorities does 
DHS need to conduct investigations related to drugs seized at the 
border by CBP and ICE?
    Answer: Currently, DHS has limited Title 21 authority: CBP through 
a legacy INS MOU with DEA for Border Patrol interdictions; and ICE 
through a 1994 legacy Customs MOU with DEA that allows for DEA 
designation of up to 1,475 ICE Agents.
    The 1994 MOU applicable to ICE requires ICE to seek permission from 
DEA, request participation by DEA, and work under the general 
supervision of DEA in any drug-related investigation. Through the 
existing Memorandum of Understanding (MOU), fully a fourth of ICE's 
criminal investigators are cross-designated which allows the ICE 
investigators to work closely with DEA on drug investigations. The 
current MOU permits ICE to investigate transnational drug cases. ICE is 
required to coordinate and de-conflict their investigations with DEA, 
allowing DEA to participate in drug smuggling investigations and to 
coordinate domestic enforcement activities.
    DOJ and DHS believe that it is important to revise the 1994 MOU 
between DEA and the United States Customs Service (now ICE) to meet 
present day challenges. By removing the limit on the number of cross-
designations and by strengthening the communication and coordination 
provisions, an updated MOU would enhance ICE's ability to perform its 
primary mission of protecting our Nation's borders and further support 
DEA's mission of enforcing Title 21 worldwide. The revised MOU would 
also enhance close coordination of efforts between our agencies, 
thereby preventing dangerous, confrontational, or duplicative 
activities. Now, more than ever, a cooperative and unified approach to 
drug law enforcement is a fundamental and necessary element of a 
successful national drug control strategy.

    Question 6.: As many reports have indicated, the violence in Mexico 
is fueled in part by the guns and currency smuggled into the country 
from the U.S. Some government officials have stated that nearly 90% of 
all firearms used by Mexican criminals and drug cartels come from the 
U.S. What percentage of the weapons recovered in Mexico, including 
untraceable weapons, do you believe are smuggled through the border 
between the US and Mexico? What percentage of weapons enter through 
Mexico's southern border? What percentage are U.S. weapons purchased 
from third party vendors, perhaps transnational criminal organizations 
outside the U.S.? By what means are these weapons smuggled into Mexico?
    Answer: According to ATF's tracing center, 90 percent of the 
firearms recovered in Mexico and subsequently traced have a nexus to 
the United States meaning that they were originally manufactured or 
imported into the United States. Further, we understand that in fiscal 
year 2008, the Mexican Government submitted approximately 7,700 trace 
requests to ATF's National Tracing Center. The Mexican Government has 
been unclear as the exact number of arms it recovered in fiscal year 
2008 but we have consistently seen the Mexican Government use the 
figure 29,000.
    It is unacceptable that any weapons are smuggled unlawfully into 
Mexico from the United States--no matter how large or small the number. 
Therefore, DHS is working with our federal, state, local, tribal, and 
foreign law enforcement partners to aggressively pursue weapons 
smuggling violations as delineated in the southwest border 
Counternarcotics Strategy.

                                 <all>

</pre></body></html>
